APPENDIX

A

Decision Of The United States Court Of Appeals
For The Fifth Circuit

Case: 20-40305

Document: 00515795969

Page: 1

Date Filed: 03/25/2021

tHmteb H>tate£ Court of appeals;
for tf)e tftfj Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-40305

March 25, 2021
Lyle W. Cayce
Clerk

Stephen C. Shockley

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division ) •
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CV-196

ORDER:
IT IS ORDERED that Appellant's motion for a certificate of
appealability is DENIED.
/s/ Carl E. Stewart
Carl E. Stewart
United States Circuit Judge

Case: 20-40305

Document: 00515858893

Page: 1

Date Filed: 05/12/2021

tHniteb i§>tate£ Court of appeals
for tl)t $tftfj Circuit
No. 20-40305

Stephen C. Shockley
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CV-196

ORDER:
IT IS ORDERED that Appellant’s motion for leave to file out of
time, the motion for reconsideration is DENIED.

/s / Carl E. Stewart
Carl E. Stewart
United States Circuit Judge

Case: 20-40305

Document: 00515849138

Page: 1

Date Filed: 05/05/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

May 05,

2021

#1793928

Mr. Stephen C. Shockley
CID Coffield Prison
2661 FM 2054
Tennessee Colony, TX 75884-0000
No. 20-40305

Shockley v. Lumpkin
USDC No. 4:17-CV-196

Dear Mr. Shockley,
We received your April 27, 2021 inquiry regarding the timeliness
of your petition for rehearing.
On April 26, 2021, your "Notice
of Timely Filing and Motion to Request Withdrawal of Mandate, Etc."
was received.
This motion-was viewed as a motion for leave to
file out of time, a motion for reconsideration of the court's March
25, 2021 order. This motion remains pending before the court at
this time. Once a ruling is made, notice will be issued
accordingly.
As a matter of information, a petition for panel rehearing of an
administrative order is not allowed. Should out of time filing be
allowed, the petition for panel rehearing will be filed as a motion
for reconsideration of the court's order denying your motion for
certificate of appealability.
Sincerely,
LYLE W. CAYCE, Clerk

As
By: ___________ _________________

Donna L. Mendez, Deputy Clerk
504-310-7677
cc:

Mr. Nathan Tadema

APPENDIX B
Decision Of The United States Federal District
Court For The Eastern District Of Texas

/

Case 4:17-cv-00196-ALM-CAN Document 27 Filed 03/30/20 Page 1 of 3 PagelD #: 1392

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
STEPHEN C. SHOCKLEY, #1793928

§
§

VS.

§ CIVIL ACTION NO. 4:17cvl96

DIRECTOR, TDCJ-CID

§
§

ORDER OF DISMISSAL
The above-entitled and numbered civil action was referred to United States Magistrate Judge
Christine A. Nowak. The Report and Recommendation of the Magistrate Judge, which contains
proposed findings offact and recommendations for the disposition ofsuch action, has been presented
for consideration. Petitioner filed objections.
In his objections, Petitioner first complains that the Magistrate Judge wrongly rejected his
claim that his right to due process was violated during closing argument, when the state asked the
jury to convict on both his indicted offense and an unadjudicated, extraneous offense. The
Magistrate Judge correctly found that this claim is procedurally barred. Petitioner also argues that
he never raised this claim. He contends he claimed that the state focused the attention of the jury
on the third party rebuttal witness during closing argument. However, a close review of his petition
shows that he claim addressed in the Report is the claim Petitioner raised.
Petitioner next objects to the finding that his claim that trial counsel was ineffective for
failing to challenge the constitutionality of Texas Penal Code section 21.02 is procedurally barred.
However, he cites to page ten of the Report. On that page, the Magistrate Judge correctly found that
Petitioner’s claim that his right to due process and/or equal protection was denied because Texas

1
Cf pg7of

(--'art,
Tu's AppewJjfi.

Case 4:17-cv-00196-ALM-CAN Document 27 Filed 03/30/20 Page 2 of 3 PagelD#: 1393

Penal Code section 21.02 is unconstitutional is procedurally barred. The Magistrate Judge discussed
the ineffective assistance of counsel claim for failing to challenge the constitutionality of Texas
Penal Code section 21.02 on pages twenty-six and twenty seven of the Report, which is addressed
below.
Petitioner objects to the rejection of his claim that Texas Penal Code section 21.02 is
unconstitutionally vague because it does not require jurors to unanimously agree on which predicate
offenses he committed. As noted in the Report, however, this issue lacks merit as both federal and
state law have rejected this claim. Therefore, Petitioner’s objection that the Magistrate Judge erred
in rejecting his claim that his counsel was ineffective for failing to investigate Texas Penal Code
section 21.02 also does not entitle him to relief.
Petitioner next argues that the Magistrate Judge erred in finding that trial counsel was not
ineffective for not objecting to the state’s constructive amendment of the indictment. The Report
appropriately addressed the issue and Petitioner’s objections do not persuade the Court otherwise.
Lastly, Petitioner objects to the finding that counsel was not ineffective for failing to
investigate or call witnesses during the punishment phase. First, as noted in the Report, Petitioner
failed to attach any affidavits to his federal petition. Second, Petitioner simply disagrees with the
Report, and fails to provides any further information than what he originally provided in his § 2254
petition. The Report appropriately addressed this issue and determined it did not entitle Petitioner
to relief.
In sum, Petitioner fails to provide a valid basis for his objections, or demonstrate how the
Magistrate Judge’s Report is incorrect. After reviewing the Report and Recommendations and
conducting a de novo review of Petitioner’s objections, the Court concludes the findings and
2

Case 4:17-cv-00196-ALM-CAN Document 27 Filed 03/30/20 Page 3 of 3 Page ID #: 1394

conclusions ofthe Magistrate Judge are correct, and adopts the same as the findings and conclusions
of the Court.
Accordingly, it is ORDERED the petition for writ of habeas corpus is DENIED, and the
case is DISMISSED with prejudice. A certificate of appealability is DENIED. It is further
ORDERED all motions by either party not previously ruled on are hereby DENIED.
SIGNED this 30th day of March, 2020.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

3

Case 4:17-cv-00196-ALM-CAN Document 28 Filed 03/30/20 Page 1 of 1 PagelD #: 1395

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

STEPHEN C. SHOCKLEY, #1793928

§
§

VS.

§ CIVIL ACTION NO. 4:17cvl96

DIRECTOR, TDCJ-CID

§
§

FINAL JUDGMENT
Having considered the petition and rendered its decision by opinion and order of dismissal
issued this same date, the Court ORDERS that the case is DISMISSED with prejudice.
SIGNED this 30th day of March, 2020.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 1 of 29 PagelD #: 1341

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

STEPHEN C. SHOCKLEY, #1793928
VS.
DIRECTOR, TDCJ-CID

§
§
§ CIVIL ACTION NO. 4:17cvl96
§
§

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pro se Petitioner Stephen C. Shockley, an inmate confined in the Texas prison system, filed
a petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254. The petition was referred to the
United States Magistrate Judge Christine A. Nowak for findings of fact, conclusions of law, and
recommendations for the disposition of the case pursuant to 28 U.S.C. § 636, and the Amended
Order for the Adoption of Local Rules for the Assignment of Duties to the United States Magistrate
Judge.
PROCEDURAL BACKGROUND
Petitioner is challenging his Collin County conviction.

Petitioner was convicted of

continuous sexual abuse of a child, Cause No. 366-82727-09. A jury found him guilty, and
sentenced him to ninety-nine years.
Petitioner appealed his conviction, which was affirmed in July 2014. Shockley v. State, No.
05-12-01018-CR, 2014 WL 3756301 (Tex. App. - Dallas 2014, pet. ref d.). He filed a petition for
discretionary review with Texas Court of Criminal Appeals (TCCA), which it refused on January
14,2015. Shockley v. State, PDR No. 1093-14 (Tex. Crim. App. 2014).
Petitioner filed a state habeas application, which was denied with a written order. The TCCA

1

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 2 of 29 PagelD #: 1342

denied relief based on both an independent review of the record, and the trial court ’ s findings of fact
and conclusions of law. Exparte Shockley, No. WR-84,823-02,2016 WL 8603711 (Tex. Crim. App.
2016). Petitioner filed the instant petition on March 16,2017. Petitioner alleges:
1.

he was denied his right to due process when the state constructively amended
his indictment by presenting evidence of an unadjudicated, extraneous
offense;

2.

Texas Penal Code section 21.02 is unconstitutionally vague because it does
not require jurors to unanimously agree on which predicate offenses
Petitioner committed; and

2.

he was denied his right to effective counsel because his attorney: (a) failed to
request a contemporaneous limiting instruction to the state’s introduction of
evidence of an extraneous offense, (b) failed to object to the state’s
constructive amendment of the indictment, (c) failed to object to the
publication of a video of the complainant’s interview recorded prior to her
live testimony, (d) failed to object to the state’s expert witness’s testimony
about the truthfulness of the complainant, (e) failed to investigate witness
Deleta Brindley, (f) failed to investigate or call witnesses during the
punishment phase, and (g) failed to investigate Texas Penal Code section
21.02.
FACTUAL BACKGROUND

The state appellate court set out the facts as follows:
Appellant’s niece, E.B., accused him of sexually assaulting her when she stayed with
his family on vacations and holidays. E.B. was approximately five years old when
2

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 3 of 29 PagelD #: 1343

the abuse began and fourteen when she testified at trial.
' During voir dire, defense counsel predicted that he might question E.B.’s
truthfulness. He asked the venire to articulate the circumstances under which a child
might make a false allegation of sexual abuse. After the panel identified several
circumstances, defense counsel also suggested that a child might fabricate such
allegations when the child “hears about someone else this has happened to, and ...
they add it into their own reality.” Counsel then told the jury an anecdote about his
niece fabricating things about her deceased father that could not have actually
happened.
In opening statement, defense counsel described appellant as a twenty-year veteran,
decorated soldier, good father, and a good husband. He told the jury that E.B. had a
troubled early life, and characterized her version of events as “a strange set of facts,”
because she alleged she was molested while others were present. Counsel told the
jury that the allegations had come to light during a period of family turmoil, and
hypothesized that E.B. ’s father and grandmother had suggested the abuse to her. E.B.
testified that the abuse first occurred on a camping trip with fathers, daughters, and
nieces during the time appellant lived in Kansas. While E.B.’s cousins were sleeping
on the bunk bed above her, appellant slid his hand under E.B.’s pants and touched her
“private parts.” On other occasions, appellant would lie on the bed between E.B. and
appellant’s daughter and tell them a bedtime story. Appellant would rub E.B.’s
private parts when his daughter fell asleep.
Appellant moved to Alabama, and E.B. and her family visited him there. Appellant
again touched E.B.’s private parts under her clothes. Then, appellant moved to
McKinney, Texas. Between March and December 2008 in McKinney, the abuse
happened repeatedly. Sometimes, they would watch a movie and appellant would
wait for his daughter to fall asleep and then put his hand under E.B.’s clothes and rub
her “tee tee.” On other occasions, appellant would get in the middle of the children
on the bed and read them a story. When appellant’s daughter fell asleep appellant
would rub E.B.’s private parts.
E.B. finally disclosed the abuse when her father asked if anyone had touched her.
During a forensic and sexual assault exam, E.B. told the sexual assault nurse that
appellant had touched her on and inside her “front part” with his hands and that it had
occurred more than once at appellant’s house in McKinney.
On cross-examination, defense counsel asked E.B. how many times her father had
asked if someone had touched her, and she agreed it had probably been more than
five times. He also asked E.B. if her grandmother had told E.B. that she had been
molested when she was a child. E.B. testified that she did not remember any such
conversation with her grandmother.
3

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 4 of 29 PagelD #: 1344

During cross-examination of the forensic examiner, defense counsel elicited the
examiner’s agreement that E.B. had probably had a troubled early life because her
birth mother had not been stable and let E.B. wander away. As a result, her father
sought and obtained custody of her. Defense counsel also asked a series of questions
about children who make false allegations of sexual abuse, and whether a child with
a troubled past would be more inclined to fabricate such allegations. Counsel also
asked whether a child sometimes gives a positive response to a parent’s inquiry about
abuse just to please the parent. The examiner agreed with counsel that a child in a
troubled environment might make false allegations of sexual abuse.
E.B.’s grandmother also testified. She described a trip to Kansas when E.B. was
almost nine. The family was at a water park, and she observed E.B. in appellant’s
lap sitting unusually still. This gave her a “funny feeling.” Later, she saw appellant
stroking E.B.’s back and buttocks after a bath. She confronted appellant about what
she had seen, and appellant expressed surprise that his behavior might be considered
inappropriate.
When the State rested, appellant called his daughter to testify. She testified that she
had never seen her father do anything to E.B. when E.B. was at their house.
Appellant’s daughter further testified that she and E.B. would argue over the fact that
she had a father who loved her but E.B. did not.
After the defense rested, the State called appellant’s former foster daughter, Kristen
Chandler, to testify. Defense counsel objected to the testimony on several grounds,
including relevance, rule 403, and rule 404(b). These objections were overruled.
Chandler was thirty years old at the time of trial. Chandler testified that she was
placed in the foster care of appellant and his former wife when she was thirteen years
old. During that time, appellant came into her bedroom while she was sleeping and
touched the front part of her genitals with his hand. The abuse progressed to oral sex
and intercourse until she was sixteen or seventeen years old. Chandler never reported
the abuse because she had made friends in the area and did not want to be removed
from foster care.
(Dkt.#10-15,pp. 1-4); Alfaro v. State,'No. 05-12-01018-CR, 2014 WL3756301 (Tex. App.-Dallas
2014, pet. ref d).

4

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 5 of 29 PagelD #: 1345

STANDARD FOR FEDERAL HABEAS CORPUS RELIEF
The role of federal courts in reviewing habeas corpus petitions by prisoners in state custody
is exceedingly narrow. A person seeking federal habeas corpus review must assert a violation of a
federal constitutional right. Loweryv. Collins, 988 F.2d 1354,1367(5th Cir. 1993). Federal habeas
corpus relief will not issue to correct errors of state constitutional, statutory, or procedural law,
unless a federal issue is also present. Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); West v.
Johnson, 92 F. 3d 1385,1404(5thCir. 1996). In the course of reviewing state proceedings, a federal
court does not sit as a super state appellate court. Dillard v. Blackburn, 780 F.2d 509, 513 (5th Cir.
1986).
The prospect of federal courts granting habeas corpus reliefto state prisoners has been further
limited by the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA). The new
provisions of Section 2254(d) provide that an application for a writ of habeas corpus shall not be
granted with respect to any claim that was adjudicated on the merits in state court proceedings unless
the adjudication of the claim: (1) was contrary to federal law then clearly established in the holdings
of the Supreme Court; (2) involved an unreasonable application of clearly established Supreme Court
precedent; or (3) was based on an unreasonable determination of the facts in light of the record
before the state court. See Harrington v. Richter, 562 U.S. 86,97-98 (2011). The statutory provision
requires federal courts to be deferential to habeas corpus decisions on the merits by state courts.
Moore v. Cockrell, 313 F.3d 880, 881 (5th Cir. 2002).
A decision by a state court is “contrary to” the Supreme Court’s clearly established law if it
“applies a rule that contradicts the law set forth in” the Supreme Court’s cases. Williams v. Taylor,
529 U.S. 362, 405-06 (2000). A federal court’s review of a decision based on the “unreasonable
5

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 6 of 29 PagelD #: 1346

application” test should only review the “state court’s ‘decision’ and not the written opinion
explaining that decision.” Neal v. Puckett, 286 F.3d 230, 246 (5th Cir. 2002) (en banc). “Under
§ 2254(d)(l)’s ‘unreasonable application’ clause, then, a federal habeas corpus court may not issue
the writ simply because that court concludes in its independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or incorrectly.” Williams, 529 U.S. at
411. Rather, that application must be objectively unreasonable. Id. at 409. The standard is satisfied
only if “reasonable jurists considering the question would be of one view that the state court ruling
was incorrect.” Davis v. Johnson, 158 F.3d 806, 812 (5th Cir 1998) (internal quotation marks and
citations omitted). On federal habeas review of a claim that was fully adjudicated in state court, the
state court’s determination is granted “a deference and latitude that are not in operation when the
case involves review under the Strickland standard itself.” Richter, 526 U.S. at 101.
“In Texas writ jurisprudence, usually a denial of relief rather than a “dismissal” of the claim
by the Court of Criminal Appeals disposes of the merits of a claim.” Singleton v. Johnson, 178 F.3d
381, 384 (5th Cir. 1999); Ex parte Torres, 943 S.W.2d 469, 472 (Tex. Crim. App. 1997) (holding
a “denial” signifies an adjudication on the merits while a “dismissal” means the claim was declined
on grounds other than the merits). Additionally, federal habeas relief is foreclosed if a claim: (1) is
procedurally barred as a consequence of a failure to comply with state procedural rules, Coleman v.
Thompson, 501 U.S. 722 (1991); (2) seeks retroactive application of a new rule of law to a
conviction that was final before the rule was announced, Teague v. Lane, 489 U.S. 288 (1989); or
(3) asserts trial error that, although of constitutional magnitude, did not have a “substantial and
injurious effect or influence in determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619,
637 (1993).
6

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 7 of 29 PagelD #: 1347

ANALYSIS

1.

Petitioner’s Right to Due Process was Violated Because the State Constructively
Amended His Indictment
Petitioner first argues that his right to due process was violated during closing argument when

the state asked the jury to convict on both his indicted offense and an unadjudicated, extraneous
offense. (Dkt. # 1, p. 6). Petitioner argues that this constituted a constructive amendment of his
indictment. Respondent asserts that this issue is foreclosed from federal habeas review because it
was presented to the TCCA and denied. (Dkt. # 9, pp. 8-9).
The TCCA denied relief based on both an independent review of the record, and the trial
court’s findings of fact and conclusions of law. (Dkt.# 11-21). Regarding Petitioner’s due process
argument, the state habeas court made the following findings and determinations:
5. Applicant alleges that, the prosecutor engaged in misconduct.by, introducing
improper evidence of an extraneous offense;
6. The admissibility of the extraneous offense was raised on direct appeal;
7. Claims that are raised and addressed on direct appeal cannot be relitigated in
habeas corpus.

(Dkt. # 11-18, pp. 31-32). By adopting the findings and conclusions of the trial court, the TCCA
expressly and unambiguously relied on a state procedural bar determination. Coleman, 501 U.S. at
729.
Petitioner’s argument is procedurally defaulted. It is well-settled that federal review of a
claim is procedurally barred if the last state to consider the claim expressly and unambiguously based
its denial of relief on a state procedural default. Coleman, 501 U.S. at 729. Additionally, if the state
court explicitly invokes a procedural bar and alternatively reaches the merits ofadefendant’s claims,

7

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 8 of 29 PagelD #: 1348

a federal court is still bound by the state procedural default. Harris v. Reed, 489 U.S. 255, 264 n.
10 (1989). Where a state court has explicitly relied on a procedural bar, a petitioner may not obtain
federal habeas corpus relief absent a showing of cause for the default and actual prejudice that is
attributable to the default, or that the federal court’s failure to consider the claim will result in a
miscarriage ofjustice. Coleman, 501 U.S.at750. A miscarriage ofjustice in this context means that
the petitioner is actually innocent of the crime for which he was convicted. Sawyer v. Whitley, 505
U.S. 333, 339-40 (1992).
Petitioner does not demonstrate, or even allege cause and prejudice, or that the failure to
consider the claim would result in a fundamental miscarriage of justice. Instead, Petitioner
acknowledges that this issue may be barred. (Dkt. # 1, p. 8). This issue is barred from federal
habeas review, and should be denied. See Coleman, 501 U.S. at 750.

2.

Petitioner’s Right to Due Process and/or Equal Protection Was Denied Because
Texas Penal Code Section 21.02 is Unconstitutional
Petitioner next claims that Texas Penal Code section 21.02 is unconstitutional. Respondent

contends that this issue is also barred. The TCCA denied reliefbased on both an independent review
of the record, and the trial court’s findings of fact and conclusions of law. Regarding Petitioner’s
claim that Section 21.02 is unconstitutional, the state habeas court made the following findings and
determinations:
1. Section 21.02 of the Texas Penal Code has not been declared facially
unconstitutional;
2. Applicant cannot raise his argument for the first time in his writ of habeas corpus;

Even if this issue was not barred, Petitioner’s jury charge did not include an additional crime that was not
presented in Petitioner’s indictment.

8

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 9 of 29 PagelD #: 1349

3. Applicant did not raise a claim that § 21.02 was unconstitutional as applied to him
at trial;
4. Applicant cannot raise this argument in his writ of habeas corpus;
** **

65. Applicant alleges that trial counsel was ineffective for failing to challenge the
constitutionality of section 21.02 of the Texas Penal Code because it lessens the
burden of proof for the State and because it allows the State to pick how it
consolidates cases;
66. Counsel states that there were no valid constitutional challenges to the statute at
the time of Applicant’s trial;
67. Applicant has not directed this Court to any case law or statute that shows that
the State’s burden of proof is anything less than beyond a reasonable doubt under
section 21.02;
68. The argument Applicant alleges trial counsel should have raised has been
rejected by Reckart v. State, 323 S.W.3d 588, 600-01 (Tex. App.-Corpus ChristiEdinburg 2010, pet. ref d) and Render v. State, 316 S. W.3d 846, 856-57 (Tex. App.Dallas 2010, pet. ref d);
69. Likewise, Applicant has not directed this Court to any case law supporting the
claim that the statute is unconstitutional because the State can choose to consolidate
the offenses under section 3.02 or 21.02 of the Texas Penal Code;
70. Contrary to Applicant’s assertions, these two statutes are completely different;
71. Section 3.02 allows for the consolidation of multiple offenses into one trial;
72. Section 21.02, on the other hand, IS an offense that encompasses several different
acts;
73. Neither of the constitutional arguments that Applicant alleges trial counsel should
have made have any merit;
74. Applicant has not shown by a preponderance of the evidence that counsel was
deficient for not raising these arguments;
75. Applicant has not shown that these arguments would have been sustained; and

9

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 10 of 29 PagelD #: 1350

76. Applicant has not established by a preponderance of the evidence that the
outcome of trial would have been different had counsel raised these meritless
challenges to the constitutionality of the statute.
(Dkt. # 11-18, pp. 31,39-41). By adopting the findings and conclusions of the trial court, the TCCA
expressly and unambiguously relied on a state procedural bar determination. Coleman, 501 U.S. at
750.
Petitioner claims he can show cause for the default because counsel’s failure to object
prevented this issue from being preserved for review. He claims that he adequately raised this claim
in his state habeas petition by arguing that his counsel failed to investigate Texas Penal Code section
21.02. However, a claim of ineffective assistance of counsel is reviewed under a different standard
than a claim of equal protection and/or due process. Therefore, the state court was not given an
opportunity to properly review this issue. Petitioner has not shown a cause for the default and actual
prejudice that is attributable to the default, or that the federal court’s failure to consider the claim
will result in a miscarriage of justice. Therefore, this claim is procedurally barred. Coleman, 501
U.S. at 750.
Even if not barred, this claim lacks merit. Petitioner argues that Texas Penal Code section
21.02 is unconstitutionally vague because it does not require jurors to unanimously agree on which
v
predicate offenses he committed. However, this argument is without merit. First, Petitioner fails
to rebut the presumption of correctness to which the state findings are entitled. Valdez v. Cockrell,
274 F.3d 941, 947 (5th Cir. 2001). Additionally, this issue has already been decided by both state
and federal courts. “The void-for-vagueness doctrine requires that a penal statute define the criminal
offense with sufficient definiteness that ordinary people can understand what conduct is prohibited.”
Uresti v. Davis, No. 3:16-CV-802-G (BH), 2018 WL 2075837, at *4 (N.D. Tex. Mar. 19, 2018),
10

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 11 of 29 PagelD #: 1351

(quoting Springer v. Cockrell, 998 F.2d 320, 322 (5th Cir. 1993)).

“A conviction may be

unconstitutional if it is obtained under a statute so vague that it does not provide adequate notice of
what conduct will be deemed criminal.” Id. As a Texas court has explained, “[s]ection 21.02 clearly
prohibits an individual from continuously sexually abusing a child under the age of 14 for a period
of more than 30 days.” Id., (citing McMillan v. State, 388 S.W.3d 866, 874 (Tex. App.—Houston
[14th Dist.] 2012)).
3.

Ineffective Assistance of Counsel
Finally, Petitioner argues that his counsel was ineffective because he: (a) failed to request a

contemporaneous limiting instruction to the state’s introduction of evidence of an extraneous
offense, (b) failed to object to the state’s constructive amendment of the indictment, (c) failed to
object to the publication of a video of the complainant’s interview recorded prior to her live
testimony, (d) failed to object to the expert witness’s testimony about the truthfulness of the
complainant, (e) failed to investigate witness Deleta Brindley, (f) failed to investigate or call
witnesses during the punishment phase, and (g) failed to investigate Texas Penal Code section21.02.
A petitioner who seeks to overturn his conviction on the grounds of ineffective assistance of
counsel must prove entitlement to relief by a preponderance of the evidence. James v. Cain, 56 F.3d
662, 667 (5th Cir. 1995). To succeed on a claim of ineffective assistance of counsel, a petitioner
must show “counsel’s representation fell below an objective standard of reasonableness,” with
reasonableness judged under professional norms prevailing at the time counsel rendered assistance.
Strickland v. Washington, 466 U.S. 668,688 (1984). This requires the reviewing court to give great
deference to counsel’s performance, strongly presuming counsel exercised reasonable professional
judgment. Id. at 688 - 690. The right to counsel does not require errorless counsel; instead, a
11

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 12 of 29 PagelD #: 1352

criminal defendant is entitled to reasonably effective assistance. Boyd v. Estelle, 661 F.2d 388, 389
(5th Cir. 1981); see also Rubio v. Estelle, 689F.2d533,535(5thCir. 1982); Murray v. Maggio, Jr.,
736 F.2d 279,282 (5th Cir. 1984). Additionally, a petitioner “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result ofthe proceeding would have been
different. A reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Strickland, 466 U.S. at 694. Petitioner must “affirmatively prove,” not just allege,
prejudice. Id. at 693. If petitioner fails to prove the prejudice component, the court need not address
the question of counsel’s performance. Id. at 697.
On habeas review, federal courts do not second-guess an attorney’s decision through the
distorting lens of hindsight; rather, the court presumes counsel’s conduct falls within the wide range
of reasonable assistance and, under the circumstances, the challenged action might be considered
sound trial strategy. Strickland, 466 U.S. at 689. “[SJecond-guessing is not the test for ineffective
assistance of counsel.” King v. Lynaugh, 868 F.2d 1400, 1405 (5th Cir. 1989). “No particular set
of rules for counsel’s conduct can satisfactorily take account of the variety of circumstances faced
by defense counsel or the range of legitimate decisions regarding how best to present a criminal
defendant.” Strickland, 466 U.S. at 688-89. “The question is whether an attorney’s representation
amounted to incompetence under prevailing professional norms, not whether it deviated from best
practices or most common custom.” Richter, 562 U.S. at 88.
Reviewing Petitioner’s ineffective-assistance-of-counsel claim through the lens of AEDPA,
however, means that he has a higher bar to exceed in order to prevail. “Surmounting Strickland's
high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371 (2010). “Establishing that
a state court’s application of Strickland was unreasonable under § 2254(d) is all the more difficult”
12

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 13 of 29 PagelD #: 1353

because “[t]he standards created by Strickland and § 2254(d) are both ‘highly deferential, ’ and when
the two apply in tandem, review is ‘doubly’ so.” Richter, 562 U.S. at 105 (citations omitted).
Moreover, unreasonableness under Strickland and under § 2254(d) are not the same. First, “[t]he
Strickland standard is a general one, so the range of reasonable applications is substantial.” Id.
Second, “[w]hen § 2254(d) applies, the question is not whether counsel’s actions were reasonable.
The question is whether there is any reasonable argument that counsel satisfied Strickland’s
deferential standard.” Id.
a.

His Counsel Failed to Request a Limiting Instruction

Petitioner first contends that his counsel was ineffective because he failed to seek a
contemporaneous limiting instruction when the state introduced “third-party rebuttal testimony that
counsel classified on-the-record as a ‘tidal wave’ of prejudice akin to a ‘skunk in the jury box.’”
(Dkt. # 3, pp. 25-26). The testimony Petitioner refers to is that of rebuttal witness Kristen Chandler.
The TCCA denied relief based on both an independent review of the record, and the trial
court’s findings of fact and conclusions of law. Regarding Petitioner’s claim that counsel failed to
request a limiting instruction, the state habeas court made the following findings and determinations:
18. Applicant alleges that his trial counsel was ineffective because he did not request
that a limiting instruction on the consideration of the extraneous offense be placed
in the jury charge;
19. Such a limiting instruction was in the jury charge;
20. Applicant has not met his burden of proof by a preponderance of the evidence
that counsel was deficient or that the outcome of the trial would have been different
had counsel requested an instruction that was already in the jury charge...
(Dkt. # 11-18, p. 33). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947.

13

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 14 of 29 PagelD #: 1354

First, the court noted that an instruction was given. Petitioner contends that this instruction
was insufficient, and that counsel should have secured an instruction at the time of the testimony.
However, Petitioner fails to show that an instruction given at the time of testimony would have
changed the outcome of the trial. Petitioner has not shown that there is a reasonable probability that,
but for counsel’s failure to request a limiting instruction, the result of the proceeding would have
been different. He has not met his burden of affirmatively proving prejudice and, therefore, is not
entitled to relief on this issue.
b.

His Counsel Failed to Object to the State’s Constructive Amendment of the
Indictment

Petitioner contends that his counsel was ineffective because he did not object to
“prosecutorial misconduct that resulted in constructive amendment of the indictment.” The
misconduct he refers to is the state’s jury argument regarding the testimony of Kristen Chandler.
The TCCA denied relief based on both an independent review of the record, and the trial court’s
findings of fact and conclusions of law. Regarding Petitioner’s claim that counsel failed to object
to the state’s jury argument, the state habeas court made the following findings and determinations:
10. Applicant alleges that trial counsel was ineffective for opening the door to the
admission of evidence of an extraneous offense;
11. In its opinion, the Dallas Court of Appeals held that the extraneous victim’s
testimony was admissible because trial counsel had challenged the indicted victim’s
credibility;
12. Counsel discussed the defensive theories with Applicant prior to trial, and that
the strategy would be to argue the lack of physical evidence and to draw attention to
the lack of evidence and inconsistent testimony;
13. Counsel knew that the State planned to call the extraneous victim and he made
efforts to walk the line between presenting a defense and not opening the door to
extraneous evidence;
14

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 15 of 29 Page!D #: 1355

14. When the State offered the extraneous evidence, he [counsel] vigorously
objected and preserved the argument for appellate review;
15. Counsel presented a viable defense and attempted to assert that defense while
keeping out extraneous evidence;
16. Applicant has not met his burden of proof by a preponderance of the evidence
that counsel was deficient for presenting the defense of fabrication;
17. Applicant has not shown that the outcome of the trial would have been different
had counsel not offered the defense of fabrication;
21. Applicant alleges that counsel was ineffective for failing to object to the portions
of the State’s closing arguments that referenced the extraneous offense;
22. Counsel stated he had already received a running objection to the extraneous
evidence and did not want to “over-object,” pursuant his typical strategy in trial;
23. Counsel had a valid trial strategy for not wanting to continuously object when
he had already been granted a running objection;
24. Applicant has not shown that the State’s arguments regarding admissible
evidence were improper;
25. Applicant has not met his burden of proof by a preponderance of the evidence
that the outcome of the trial would have been different had counsel objected to the
State’s proper arguments.. . .
(Dkt. # 11-18, pp. 32-34). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947. Counsel also addressed this issue in his affidavit
presented to the state habeas court.
Our defensive theory centered on the lack of corroborating evidence to support the
child’s version of events. There was little or no physical evidence to support the ,
allegation. There were also no witnesses to support the child’s version of events. Our
defensive goal was to draw attention to this lack of evidence and other
inconsistencies in testimony. This trial was a classic “he said, she said” sexual
assault case, however, complicated by the state’s use of prior alleged victim of the
Defendant.
(Issues 7-11)
15

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 16 of 29 PagelD #: 1356

Defense counsel was aware from the outset of Kristen Chandler’s likely testimony.
This matter was discussed extensively with Mr. Shockley. Defense counsel walked
as fine a line as possible to avoid opening the door to Chandler’s testimony.
However, to put on any defense whatsoever required some attack on the credibility
of the evidence. Counsel did not feel he opened the door to Chandler’s testimony,
though it may have been admissible on other grounds. To not do so would have
essentially meant providing no defense in this type of sexual assault case. Efforts
were made to exclude Chandler’s testimony. A hearing was held outside the
presence of the jury wherein counsel made 404 objections, relevancy objections, and
probative/prejudice objections. These objections were denied and counsel was
granted a running bill. 1 chose a running bill so as to avoid having to repeatedly
object in front of the jury. This is a common trial strategy employed by counsel.
There was no question on appeal regarding whether error was properly preserved.
(Issues 12-14)
Defense counsel cannot recall whether a limiting instruction was requested, however,
it appears a limiting instruction was included in the Court’s Charge.
(Issue 15)
Defense counsel cannot recall a specific objection to the extraneous offense during
closing argument, however, a running bill had been granted and the testimony had
previously been objected to and preserved. Again, trial counsel employs the strategy
of not over objecting in front of the jury so as to avoid jury alienation and drawing
further attention to undesirable evidence.

(Dkt. # 11-18, pp. 12-13). Counsel made an objection to the extraneous offense, but it was
overruled. Kristen Chandler was allowed to testified as a rebuttal witness to rebut the defensive
theory of fabrication. Counsel did anticipate her testimony, but felt the risk was worth taking in
order to present “any defense.” This was a reasonable strategic decision. See Richter, 562 U.S. 86
at 107 (citing Strickland, 466 U.S. at 691). Further, the jury charge did not include an additional
crime that was not presented in Petitioner’s indictment.
Petitioner has not shown there is a reasonable probability that, had counsel objected to the
state’s jury argument rather then allow a running bill on his objection, the result of the proceeding

16

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 17 of 29 PagelD #: 1357

would have been different. He has not met his burden of affirmatively proving prejudice. Therefore,
this claim should be denied.
c.

His Counsel Failed to Object to the Publication of a Video of the Complainant

Petitioner next argues that his counsel performed ineffectively because he failed to object to
the publication of the complainant’s forensic video-interview, which was conducted prior to trial.
The TCCA denied relief based on both an independent review of the record, and the trial court’s
findings of fact and conclusions of law. Regarding Petitioner’s claim that counsel failed to object
to the publication of a video of the complainant, the state habeas court made the following findings
and determinations:
26. Applicant alleges that trial counsel was ineffective for failing to object to the
admission of the video of the victim’s forensic interview under article 38.071 of the
Texas Code of Criminal Procedure and the Confrontation Clause;
27. Both article 38.071 and the Confrontation Clause apply in cases where the child
victim or other witness does not testify at trial or otherwise not subject to crossexamination;
28. Only two people are in the video- the victim and the forensic interviewer;
29. Both of these witnesses testified at trial and were cross-examined by trial
counsel;
30. Any objection that the video violated article 38.071 or the Confrontation Clause
would lack merit;
31. Counsel should not be held ineffective for failing to raise a meritless argument;
32. Applicant has not shown by a preponderance of the evidence that counsel was
deficient;
33. Counsel used the video to draw point out inconsistencies between statements
made during the interview and the trial testimony;
34. Counsel also used the video to argue that coercive interview techniques were
17

Case 4:17-cv-00196-ALM-CAN

Document 20 Filed 02/28/20 Page 18 of 29 PagelD #: 1358

used with the victim;
35. Counsel used the video to advance his defensive theories;
36. Applicant has not shown by a preponderance of the evidence that the outcome
of the trial would have been different had counsel objected to the admission of the
video. ...

(Dkt. # 11-18, pp. 34-35). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947. Counsel also addressed this issue in his affidavit he
presented to the state habeas court:
Both the victim and the forensic interviewer testified at trial. To my recollection,
they were the only two people on the video. Both witnesses were also cross
examined at trial to the best I can recall. There was strategy employed here to draw
out discrepancies in the video statement and the child’s live testimony. Additionally,
efforts were made to point out coercive techniques used with the child.
(Dkt. 11-18, p. 13). As the state habeas court notes, an objection would have been futile, and
counsel is not required to raise futile objections. Clarkv. Collins, 19F.3d959,966(5thCir. 1994).
Counsel also had a strategy to use the video to draw out discrepancies between the video and the
complainant’s live testimony, and point out coercive techniques used in the interview. This was
reasonable trial strategy. Richter, 562 U.S. 86 at 107 (citing Strickland, 466 U.S. at 691).
Additionally, counsel cross-examined both persons shown on the video at trial.
Petitioner has not shown that there is a reasonable probability that, but for counsel’s failure
to object, the result of the proceeding would have been different. This claim should be denied.
d.

Counsel Failed to Object to Expert Testimony About the Truthfulness of the
Complainant

Petitioner contends that his counsel was ineffective because he failed to object to the
testimony of the state’s forensic expert.

The particular statement was that “[ujsually, the
18

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 19 of 29 PagelD #: 1359

investigation doesn’t come to court if the child isn’t telling the truth.” To understand this allegation,
it is necessary to place the statement in context. Counsel elicited the following testimony from the
witness:
Q You’ve done about 1300 interviews?
A Yes. A little bit more than that probably.
Q How many times out of 1300 have you found a child’s story to be not
believable?
A Out of 1300,1 can’t really tell you how many offhand but it’s very little.
Q How many times have you come to court and said I don’t believe a child is
telling the truth?
A Typically if the child is not
Q Ma’am, that’s a single word answer. How many times —
A None.
Q — have you come to court —
A None.
Q You’ve never come to court and said I don’t believe the child?
A No.
Q You did make mention earlier that you were unbiased and neutral in interviews.
A Yes.
Q However, you always find fault or guilt, correct?
A By the time it comes to court, yes.
Q So you’re not really that unbiased and neutral. Would you agree with that
statement?

19

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 20 of 29 PagelD #: 1360

A Oh, I am unbiased and neutral.
Q Even though you are 100 percent of the time finding a child to be true?
A No, not 100 percent of the time.
Q But you've never come to court and said that you didn't believe a child.
A Usually the investigation doesn’t come to court if the child is not telling the
truth.

(Dkt. # 10-5, pp. 77-79) (emphasis added). The TCCA denied relief based on both an independent
review of the record, and the trial court’s findings of fact and conclusions of law. Regarding
Petitioner’s claim that counsel failed to object to this testimony, the state habeas court made the
following findings and determinations:
37. Applicant alleges that counsel was ineffective for failing to object when the
forensic interviewer testified that “it’s the actual story of what happened’’ and that the
investigation does not go to trial unless the child is telling the truth;
38. During direct examination, the forensic interviewer testified that it is important
that victim corrected her when the interviewer gave a timeline of events, because it
showed that the victim was not letting the interviewer suggest or lead her, and that
the interview reflect the actual story of what happened;
39. During cross-examination, trial counsel asked the forensic interviewer if she had
ever come to trial and testified that she did not believe a child; the interviewer
responded that an investigation does not go to trial if the child is not telling the truth;
40. Counsel does not remember these statements;
41. An expert may not offer a direct opinion on the truthfulness of a child
complainant’s allegations;
42. When taken in context with the question asked and the forensic interviewer’s
entire response, it is clear that the forensic interviewer was not commenting on the
victim’s truthfulness, but was informing the jury why it was important that the victim
correct her in her assessment of the timeline of assaults-so that the story is the
victim’s, not the interviewer’s;
20

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 21 of 29 PagelD #: 1361

43. This statement was not a direct comment on the victim’s truthfulness;
44. Any objection to the forensic interviewer’s testimony would have been meritless;
45. Applicant also alleges that the forensic interviewer’s statement that an
investigation does not go to trial if the child is not telling the truth was a direct
comment on the victim’s truthfulness;
46. This statement was, however, in response to trial counsel’s question of whether
she had ever testified that a victim was not truthful;
47. Trial counsel elicited the testimony and the testimony was in direct response to
his question;
48. Applicant has not shown how counsel could have successfully challenged the
forensic interviewer’s testimony;
49. Applicant has failed to show that any objection regarding the forensic
interviewer’s testimony would have been successful;
50. Applicant has failed to establish by a preponderance of the evidence that trial
counsel was deficient for not raising these objections to the forensic interviewer’s
testimony;
51. Applicant has failed to establish by a preponderance of the evidence that the
outcome of the trial would have been different had counsel made these objections;

(Dkt. # 11-18, pp. 35-37). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947.
As the state habeas court found, the statement Petitioner complains about was elicited by
counsel. It was not a comment on the truthfulness of the complainant, but a response to counsel
asking the witness if she had ever testified that a complainant was not truthful. As the state habeas
court notes, an objection would have been futile, and counsel is not required to raise futile
objections. Clark, 19 F.3d at 966. Counsel’s trial strategy was to attack the credibility of the
evidence. As part of that strategy, he elicited testimony from the forensic witness that she had never
21

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 22 of 29 PagelD #: 1362

testified that she did not believe a child. This put her credibility in issue.
Petitioner has not shown that there is a reasonable probability that, had counsel objected to
the witness’ statement, the result of the proceeding would have been different. This claim should
be denied.
e.

Counsel Failed to Investigate Deleta Brindley

Petitioner next contends that his counsel was ineffective because he did not investigate Deleta
Brindley, complainant’s grandmother. Brindley testified that the complainant’s father was known
to have molested a family member. The TCCA denied relief based on both an independent review
of the record, and the trial court’s findings of fact and conclusions of law. Regarding Petitioner’s
claim that counsel failed to investigate this witness, the state habeas court made the following
findings and determinations:
52. Applicant alleges that counsel was ineffective for failing to interview the
victim’s grandmother prior to trial because counsel was “surprised” by her testimony
that the victim’s father had been accused of molestation;
53. Counsel admits that he was surprised when the victim’s grandmother admitted
during cross-examination that the victim’s father had been accused of molestation;
54. The admission helped Applicant’s defensive theory and prevented the victim’s
father from taking the stand, improving Applicant’s situation with the jury;
55. Counsel considers the victim’s grandmother’s admission as “one of the better
defensive moments of the trial offering a possible other explanation for the victim’s
allegations.;”
56. The testimony was beneficial to Applicant’s defensive theory;
57. Applicant has adduced no evidence that deciding not to interview a peripheral
witness was an unreasonable strategic choice;
58. Applicant has not shown by a preponderance of the evidence that trial counsel
was deficient for not seeking to interview the victim’s grandmother prior to trial;
22

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 23 of 29 PagelD #: 1363

59. Applicant has not shown by a preponderance of the evidence that the outcome
of the trial would have been different had counsel interviewed the victim’s
grandmother prior to trial....

(Dkt. #11-18, pp. 38-39). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947. Petitioner contends that counsel’s failure “left
uninvestigated” a viable explanation for the complainant’s claims. (Dkt. # 3-2, p. 20). However,
the record belies this claim. This claim lacks merit because the testimony was elicited at trial. As
the state habeas court notes, the admission by Brindley aided Petitioner’s defensive theory, offering
an explanation for the complainant’s allegations. It also prevented the complainant’s father from
testifying. Counsel thoroughly cross-examined this witness as to her son’s alleged abuse.
Petitioner has not shown that counsel was ineffective for failing to interview the peripheral
witness, or what any additional investigation would have been of benefit to the defense. Thus,
Petitioner has not shown that there is a reasonable probability that, had counsel contacted this
witness prior to trial, the result of the proceeding would have been different. This claim should be
denied.
f.

Counsel Failed to Investigate or Call Witnesses During the Punishment Phase

Petitioner next claims that counsel was ineffective for his failure to investigate or call
witnesses during the punishment phase of the trial. He argues that, because there was no testimony
at the punishment phase, the jury returned a maximum sentence of ninety-nine years. Id. Petitioner
.states that he attaches the affidavits of sixteen “men and women who, as young boys and girls spent
years in close relationship with Mr. Shockley as teacher and mentor.” The Court has not located
those affidavits in any of Petitioner’s pleadings filed in this action. They are located only in his state
23

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 24 of 29 PagelD #: 1364

habeas proceedings that Respondent filed with this Court. Therefore, Petitioner has not met his
burden and shown that these witnesses were available, and would have been willing to testify on his
behalf. Day v. Quarterman, 566 F.3d 527, 538 (5th Cir. 2009) (petitioner seeking to show
ineffective assistance of counsel for failure to call witnesses must “demonstrate that the witness was
available to testify and would have done so.”).
Even if those affidavits were properly before this Court, Petitioner would not be entitled to
relief. The TCCA denied relief based on both an independent review of the record, and the trial
court’s findings of fact and conclusions of law. Regarding Petitioner’s claim that counsel failed to
investigate or call witnesses at the punishment phase, the state habeas court made the following
findings and determinations:
60. Applicant alleges that trial counsel was ineffective for not calling 16 witnesses
at punishment;
61. Applicant has attached affidavits from all of these witnesses to his application.
The general theme of the affidavits is that Applicant is a nice guy and each witness
would have offered testimony about how he was nice to them and people around
them;
62. Applicant affirmatively stated on the record that he did not want to call any
witnesses at punishment and did not want to testify himself;
63. Applicant has not shown that by a preponderance of the evidence that counsel
was deficient for failing to call witnesses after Applicant told him that he did not
want such witnesses called;
64. Applicant has not shown by a preponderance of the evidence that the outcome
of the trial would have been different had counsel called witnesses after Applicant
told him that he did not want such witnesses called.

(Dkt. # 11-18, p. 39). Petitioner fails to rebut the presumption of correctness to which the state
findings are entitled. Valdez, 274 F.3d at 947. Petitioner has not overcome the fact that he stated
24

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 25 of 29 PagelD #: 1365

on the record that he did not want to testify or call any witnesses at the punishment phase.
“[CJomplaints of uncalled witnesses are not favored, because the presentation of testimonial
evidence is a matter of trial strategy and because allegations of what a witness would have testified
are largely speculative.” Buckelew v. United States, 575 F.2d 515,521 (5th Cir.1978). Further, the
presentation of witness testimony is essentially strategy and, thus, within the trial counsel’s domain.
Alexander v. McCotter, 775 F.2d 595, 602 (5th Cir.1985). A petitioner must overcome a strong
presumption that his counsel’s decision in not calling a particular witness was a strategic one.
Murray, 736 F2d at 282. “Defense counsel is not required ‘to investigate everyone whose name
happens to be mentioned by the defendant.

Schwander v. Blackburn, 750 F.2d 494, 500 (5th Cir.

1985) (quoting Cockrell, 720 F.2d 1423, 1428 (1983)). Where “the only evidence of a missing
witness’s testimony is from the defendant,” claims of ineffective assistance are viewed with great
caution. United States v. Cockrell, 720 F.2d 1423, 1427 (5th Cir. 1983). Conclusory claims are
insufficient to entitle a habeas corpus petitioner to relief. United States v. Woods, 870 F.2d. 285,
287-288; Schlangv. Heard, 691 F.2d 796,799 (5th Cir. 1982); Yoheyv. Collins, 985 F.2d 222,22425 (5th Cir. 1993).
Defense counsel also has the obligation to conduct a “reasonably substantial, independent
investigation.” Neal, 239 F.3d at 688 (quoting Baldwin v. Maggio, 704 F.2d 1325, 1332-33 (5th
Cir. 1983). The Supreme Court has explained the governing standard:
Strategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable; and strategic choices made after less
than complete investigation are reasonable precisely to the extent that reasonable
professional judgments support the limitations on investigation. In other words,
counsel has a duty to make reasonable investigations or to make a reasonable
decision that makes particular investigations unnecessary. In any ineffectiveness case,
a particular decision not to investigate must be directly assessed for reasonableness

25

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 26 of 29 PagelD #: 1366

in all the circumstances, applying a heavy measure of deference to counsel’s
judgments.
Strickland, 466 U.S. at 690-91. There are no “strict rules” for counsel’s conduct beyond “the
general requirement of reasonableness.” Cullen v. Pinholster, 563 U.S. 170, 195-196(2011). “An
attorney need not pursue an investigation that 'would be fruitless, much less one that might be
harmful to the defense.” Richter, 562 U.S. 86 at 108 (citing Strickland, 466 U.S. at 691). Trial
counsel is “entitled to formulate a strategy that was reasonable at the time and to balance limited
resources in accord with effective trial tactics and strategies.” Id. at 107. Moreover, “a defendant
who alleges a failure to investigate on the part of his counsel must allege with specificity what the
investigation would have revealed and how it would have altered the outcome of the trial.” Druery
v. Thaler, 647 F.3d 535,541 (5th Cir. 2011) (quoting Nelson v. Hargett, 989 F.2d 847,850 (5th Cir.
1993)). Upon a reasonable investigation, defense counsel also has an obligation to make reasonable
strategic decisions regarding which witnesses and evidence he will present. Strickland, 466 U.S. at
690-91. “[T]he failure to present a particular line of argument or evidence is presumed to have been
the result of strategic choice.” Taylor v. Maggio, 727 F.2d 341, 347 (5th Cir. 1984).
Petitioner fails to overcome that he stated, on the record, that he did not want to call any
witnesses. Petitioner also fails to show that, had these witnesses been called, there is a reasonable
probability that the result of the proceeding would have been different. He has only made conclusory
allegations, and has not met his burden of affirmatively proving prejudice. This claim should be
denied.
g-

Counsel Failed to Investigate Texas Penal Code Section 21.02

Finally, Petitioner argues that his counsel was ineffective for failing to investigate Texas

26

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 27 of 29 PagelD #: 1367

Penal Code section 21.02, claiming that it is unconstitutional. The TCCA denied relief based on
both an independent review of the record, and the trial court’s findings of fact and conclusions of
law. As shown above, Texas Penal Code section 21.02 is not unconstitutional.
Petitioner fails to rebut the presumption of correctness to which the state findings are entitled.
Valdez, 274 F.3d at 947. He fails to rebut the state habeas court’s conclusion that this issue has been
rejected. Petitioner has not shown that there is a reasonable probability that, had his counsel raised
this issue, the result of the proceeding would have been different. This claim should be denied.
CONCLUSION
Petitioner’s first two claims that: (l) he was denied his right to due process when the state
constructively amended his indictment, and (2) Texas Penal Code section 21.02 is unconstitutionally
vague, are procedurally defaulted.
In each claim of ineffective assistance of counsel, Petitioner fails to demonstrate the state
habeas court’s decision was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court of the United States; or resulted in a
decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. See Williams, 529 U.S. at 402-03. Petitioner fails to show
there was no reasonable basis for the state court to deny relief. Richter, 562 U.S. at 98. Additionally,
Petitioner fails to prove prejudice, or show that his counsel’s representation amounted to
incompetence under prevailing professional nonns.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the Court of Appeals from a final order in a proceeding under
§ 2254 “unless a circuit justice or judge issues a certificate of appealability.” 28 U.S.C. §
27

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 28 of 29 PageiD #: 1368

2253(c)(1)(B).

Although Petitioner has not yet filed a notice of appeal, it is respectfully

recommended that this court, nonetheless, address whether Petitioner would be entitled to a
certificate of appealability. See Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district
court may sua sponte rule on a certificate of appealability because “the district court that denies a
petitioner relief is in the best position to determine whether the petitioner has made a substantial
showing of a denial of a constitutional right on the issues before the court. Further briefing and
argument on the very issues the court has just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained
the requirement associated with a “substantial showing of the denial of a constitutional right” in
Slack v. McDaniel, 529 U.S. 473,484 (2000). In cases where a district court rejected constitutional
claims on the merits, the petitioner must demonstrate “that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Id. ; Henry v. Cockrell, 327
F.3d 429,431 (5th Cir. 2003). When a district court denies a motion on procedural grounds without
reaching the underlying constitutional claim, a certificate of appealability should issue when the
Petitioner shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling. Id.
In this case, it is respectfully recommended that reasonablejurists could not debate the denial
of Petitioner’s § 2254 motion on substantive or procedural grounds, nor find that the issues presented
are adequate to deserve encouragement to proceed. See Miller-El v. Cockrell, 537 U.S. 322,336-37
(2003) (citing Slack, 529 U.S. at 484). Accordingly, it is respectfully recommended that the court
28

Case 4:17-cv-00196-ALM-CAN Document 20 Filed 02/28/20 Page 29 of 29 PagelD #: 1369

find that Petitioner is not entitled to a certificate of appealability.
RECOMMENDATION
It is recommended that the above-styled petition filed under 28 U.S.C. § 2254 be denied and
that the case be dismissed with prejudice.

It is further recommended that a certificate of

appealability be denied.
Within fourteen days after service of the magistrate judge’s report, any party must serve and
file specific written objections to the findings and recommendations of the magistrate judge. 28
U.S.C. § 636(b)(1)(c). To be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and specify the place
in the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge
is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object See Douglass v. United Servs. Auto. Ass 'n, 79 F.3d
1415,1430(5thCir. 1996) (en banc), superceded by statute onother grounds, 28 U .S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 28th day of February, 2020.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE
29

APPENDIX C
Decision Of The Texas Court Of Criminal Appeals

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO, WR-84,823-02

EX PARTE STEPHEN COLEMAN SHOCKLEY, Applicant

ON APPLICATION FOR A WRIT OF HABEAS CORPUS
CAUSE NO. W366-82727-09-HC IN THE 366TH DISTRICT COURT
FROM COLLIN COUNTY

ORDER
Pursuant to the provisions of Article 11.07 of the Texas Code of Criminal Procedure, the
clerk of the trial court transmitted to this Court this application for a writ of habeas corpus. Ex parte
Young,41% S.W.2d824,826 (Tex. Crim. App. 1967). Applicant was convicted of continuous sexual
I

abuse of a child and sentenced to ninety-nine years’ imprisonment. The Fifth Court of Appeals
affirmed his conviction. Shockley v. State

05-12-01018-CR (Tex. App.—Dallas July 30,2014).

On September 21, 2016, this Court issued an order, remanding the instant application back
to the 366th District Court of Collin County for an affidavit from counsel and findings of fact and
conclusions of law from the trial court. It has now been brought to our attention that the Collin
i

County District Clerk filed counsel’s affidavit and the trial court’s findings of fact and conclusions
of law with this Court on August 4, 2016, prior to the issuance of the remand order. Therefore, the

2
State has filed a motion requesting reconsideration of our remand order issued on September 21,
2016. Because this Court has already received the documents ordered, the request is granted.
We now withdraw the order dated September 21, 2016. Based on the trial court’s findings
of fact and conclusions of law, as well as this Court’s independent review of the record, we find that
Applicant’s claims are without merit. Therefore, we deny relief.
Filed: November 9, 2016
Do not publish

Case 4:17-cv-00196-ALM-CAN Document 11-15 Filed 08/11/17 Page 1 of 1 PagelD #: 1041

APPLICANT STEPHEN COLEMAN SHOCKLEY APPLICATION NO. WR-84.823-02

APPLICATION FOR 11.07 WRIT OF HABEAS CORPUS

ACTION TAKEN
DENIED WITH WRITTEN ORDER.

JUDGE

T

/?/DATE

APPENDIX D
Decision Of The Court Of Appeals,
Fifth District Of Texas at Dallas

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 1 of 10 PagelD #: 924

Affirmed and Opinion Filed July 30,2014

In The

(Kourt nf Appeals
iffiftly Sistriet sf ®e.xas at Hallas
No. 05-12-01018-CR
STEPHEN COLEMAN SHOCKLEY, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 366th Judicial District Court
Collin County, Texas
Trial Court Cause No. 366-82727-09

OPINION
Before Justices Moseley, O’Neill, and FitzGerald
Opinion by Justice FitzGerald
A jury convicted appellant of continuous sexual abuse of a child under fourteen years of
age and sentenced him to ninety-nine years’ imprisonment. In three issues on appeal, appellant
complains the trial court erred in admitting extraneous offense testimony. Concluding appellant’s
arguments are without merit, we affirm the trial court’s judgment.

BACKGROUND
Appellant’s niece, E.B., accused him of sexually assaulting her when she stayed with his
family on vacations and holidays. E.B. was approximately Five years old when the abuse began
and fourteen when she testified at trial.
During voir dire, defense counsel predicted that he might question E.B.’s truthfulness. He
asked the venire to articulate the circumstances under which a child might make a false
allegation of sexual abuse. After the panel identified several circumstances, defense counsel also

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 2 of 10 PagelD #: 925

suggested that a child might fabricate such allegations when the child “hears about someone else
this has happened to, and . . . they add it into their own reality.” Counsel then told the jury an
anecdote about his niece fabricating things about her deceased father that could not have actually
happened.
In opening statement, defense counsel described appellant as a twenty-year veteran,
decorated soldier, good father, and a good husband. He told the jury that E.B. had a troubled
early life, and characterized her version of events as “a strange set of facts,” because she alleged
she was molested while others were present. Counsel told the jury that the allegations had come
to light during a period of family turmoil, and hypothesized that E.B.’s father and grandmother
had suggested the abuse to her.
E.B. testified that the abuse first occurred on a camping trip with fathers, daughters, and
nieces during the time appellant lived in Kansas. While E.B.’s cousins were sleeping on the bunk
bed above her, appellant slid his hand under E.B.’s pants and touched her “private parts.” On
other occasions, appellant would lie on the bed between E.B. and appellant’s daughter and tell
them a bedtime story. Appellant would rub E.B.’s private parts when his daughter fell asleep.
- Appellant moved to Alabama, and E.B. and her family visited him there. Appellant again
touched E.B.’s private parts under her clothes. Then, appellant moved to McKinney, Texas.
Between March and December 2008 in McKinney, the abuse happened repeatedly. Sometimes,
they would watch a movie and appellant would wait for his daughter to fall asleep and then put
his hand under E.B.’s clothes and rub her “tee tee.” On other occasions, appellant would get in
the middle of the children on the bed and read them a story. When appellant’s daughter fell
asleep appellant would rub E.B.’s private parts.
E.B. finally disclosed the abuse when her father asked if anyone had touched her. During
a forensic and sexual assault exam, E.B. told the sexual assault nurse that appellant had touched
-2-

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 3 of 10 PagelD #: 926

her on and inside her “front part” with his hands and that it had occurred more than once at
appellant’s house in McKinney.
On cross-examination, defense counsel asked E.B. how many times her father had asked
if someone had touched her, and she agreed it had probably been more than five times. He also
asked E.B. if her grandmother had told E.B. that she had been molested when she was a child.
E.B. testified that she did not remember any such conversation with her grandmother.
During cross-examination of the forensic examiner, defense counsel elicited the
examiner’s agreement that E.B. had probably had a troubled early life because her birth mother
had not been stable and let E.B. wander away. As a result, her father sought and obtained
custody of her. Defense counsel also asked a series of questions about children who make false
allegations of sexual abuse, and whether a child with a troubled past would be more inclined to
fabricate such allegations. Counsel also asked whether a child sometimes gives a positive
response to a parent’s inquiry about abuse just to please the parent. The examiner agreed with
counsel that a child in a troubled environment might make false allegations of sexual abuse.
E.B.’s grandmother also testified. She described a trip to Kansas when E.B. was almost
nine. The family was at a water park, and she observed E.B. in appellant’s lap sitting unusually
still. This gave her a “funny feeling.” Later, she saw appellant stroking E.B.’s back and buttocks
after a bath. She confronted appellant about what she had seen, and appellant expressed surprise
that his behavior might be considered inappropriate.
When the State rested, appellant called his daughter to testify. She testified that she had
never seen her father do anything to E.B. when E.B. was at their house. Appellant’s daughter
further testified that she and E.B. would argue over the fact that she had a father who loved her
but E.B. did not.

-3-

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 4 of 10 PagelD #: 927

After the defense rested, the State called appellant’s former foster daughter, Kristen
Chandler, to testify. Defense counsel objected to the testimony on several grounds, including
relevance, rule 403, and rule 404(b). These objections were overruled.
Chandler was thirty years old at the time of trial. Chandler testified that she was placed in
the foster care of appellant and his former wife when she was thirteen years old. During that
time, appellant came into her bedroom while she was sleeping and touched the front part of her
genitals with his hand. The abuse progressed to oral sex and intercourse until she was sixteen or
seventeen years old. Chandler never reported the abuse because she had made friends in the area
and did not want to be removed from foster care.
DISCUSSION
Appellant asserts the trial court erred in admitting Chandler’s extraneous offense
testimony because it was not relevant or admissible under Rule 404(b) and the prejudicial effect
of the testimony outweighed any probative value. We review a trial court’s decision to admit
evidence under Rules 404(b) and 403 for an abuse of discretion.1 “As long as the trial court’s
ruling is within the ‘zone of reasonable disagreement,’ there is no abuse of discretion, and the
trial court's ruling will be upheld.”2 If the trial court’s decision is correct on any theory of law
applicable to the case, we will uphold the decision.3
Relevance and Admissibility Under Rule 404(b).
Rule 404(b) expressly provides that evidence of other crimes, wrongs, or acts is not
admissible to prove the character of the defendant in order to show he acted in conformity
therewith.4 Rule 404(b) codifies the common law principle that a defendant should be tried only

See De La Pazv. State, 279 S. W.3d 336, 343-44 (Tex. Crim. App. 2009).
2 Id.
3 Id.
4 See TEX. R. Evid. 404(b).

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 5 of 10 PagelD #: 928

for the offense for which he is charged and not for being a criminal generally.5 But the rule
provides a list of exceptions to the general rule of inadmissibility, and states that extraneous
offense evidence may be admissible for other purposes such as proof of motive, opportunity,
intent, preparation, plan, knowledge, identity, or absence of mistake or accident.6 The list of
exceptions providing for the admission of such evidence, however, is nonexhaustive.7
Here, the trial court allowed the extraneous offense testimony to rebut a defensive theory
of fabrication. The court of criminal appeals has stated that rebuttal of a defensive theory is one
of the permissible purposes for which relevant evidence may be admitted under rule 404(b).8 A
defendant’s presentation of a defensive theory in an opening statement, for example, may open
the door to the admission of extraneous offense evidence to rebut the defensive theory.9
Extraneous offenses are admissible to rebut defensive theories raised by the testimony of a
defense witness during direct examination or a State’s witness during cross-examination.10
Furthermore, evidence of extraneous offenses in sexual assault cases is properly admitted under
rule 404(b) to rebut a defensive theory of retaliation or fabrication or that the defendant is “the
innocent victim of a ‘frame-up’ by the complainant or others. ”ii “In such a situation, the
extraneous misconduct must be at least similar to the charged one and an instance in which the
‘frame-up’ motive does not apply.”12

5 Rogers v. State, 853 S.W.2d 29, 32 n.3 (Tex. Crim. App. 1993); see also Segimdo v. State, 270 S.W.3d 79, 87 (Tex. Crim. App. 2008)
(explaining defendant is generally to be tried only for the offense charged, not for any other crimes).
6 Tex. R. Evid. 404(b).
7 See Prible v. State, 175 S.W.3d 724, 731 (Tex. Crim. App. 2005).

See Moses v. State, 105 S.W.3d 622, 626 (Tex. Crim. App. 2003).
9 See Bass v. State, 270 S.W.3d 557, 563 (Tex. Crim. App. 2008).
10 See Daggett v. State, 187S.W.3d 444, 451 (Tex. Crim. App. 2005); Ransom v. State. 920 S.W.2d 288, 301 (Tex. Crim. App. 1996).
11 Wheeler v. State, 67 S.W.3d 879, 885 (Tex. Crim. App. 2002); see also Bass, 270 S.W.3d at 563 & n.8.
12 Wheeler, 67 S.W.3dat 888 n.22; see also Dennis v. State, 178 S.W3d 172,179 (Tex. App.—Houston [1st Dist.] 2005, pet. refd).

5

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 6 of 10 PagelD #: 929

Appellant asserts that nothing about the extraneous offense testimony refutes the
defense’s contention that E.B. was not truthful. He further asserts that Chandler’s testimony
about “substantially different” events that occurred seventeen years ago served only to sully the
character of appellant and persuade the jury that he was acting in conformity with a
particularized character trait. We disagree.
There is no question that the defensive theory of the case centered on the veracity of
E.B.’s allegations. Indeed, appellant describes the “sum and substance” of the case as involving
the “truthful nature of the victim’s allegations.” Counsel suggested that E.B. fabricated the
allegations, and that such fabrication resulted from a troubled past, from suggestive comments
made by her father and grandmother, and from E.B.’s need for acceptance in the family. This
defensive theory was introduced during voir dire, repeated throughout trial, and argued in closing
argument. During closing argument, defense counsel argued that it was implausible that E.B. had
been molested while appellant’s daughter was present. Counsel further argued that if someone
tells a child something repeatedly, they begin to believe it “and then it becomes not so hard to
repeat the story back.”
Under these circumstances, we cannot conclude the evidence was not relevant.
“Relevant evidence” means evidence having any tendency to make the existence of any fact that
is of consequence to the determination of the action more probable or less probable than it would
be without the evidence. ”13 This definition is necessarily broad.14 Even evidence that is
inadmissible character evidence may be relevant.15 Extraneous offense evidence is admissible if

13 Tex. R. Evid. 401.
14 Montgomery v. Stale, 810 S.W.2d 372, 39! (Tex. Crim. App. 1990) (op. on rehearing).
15 Id at 386.

-6-

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 7 of 10 PagelD #: 930

it has some logical relevance aside from character conformity.16 A similar sexual assault against
another unrelated child has a tendency to show that E.B.’s allegations were less likely to have
been fabricated. Because the extraneous evidence tends to make the defensive claim of
fabrication less probable, the evidence has some relevance aside from character conformity.
We are similarly unpersuaded by appellant’s assertion that the extraneous offense was not
sufficiently similar to the charged offense. An exacting degree of similarity is not required.17
The similarities between the two offenses must only be such that the evidence is still relevant.18
Here, the two offenses involved young girls in appellant’s home who were inappropriately
touched by appellant as they prepared for sleep or while they were asleep. This similarity is
sufficient to survive the test of relevance.
Because the extraneous evidence was relevant and admissible to rebut the defensive
claim of fabrication, the trial court did not err in refusing to exclude it. Appellant’s first two
issues are overruled.
Probative Value and Prejudicial Effect.
Appellant also contends the trial court erred in admitting the testimony because the
prejudicial effect outweighed the probative value. Rule 403 provides that “[although relevant,
evidence may be excluded if its probative value is substantially outweighed by the danger of
unfair prejudice, confusion of the issues, or misleading the jury, or by considerations of undue
delay, or needless presentation of cumulative evidence. ’>19 In conducting a Rule 403 balancing
test, courts consider factors which include, but are not limited to: (1) the probative value of the
evidence; (2) the potential to impress the jury in some irrational, yet indelible, way; (3) the time
16 Bass, 270 S.W.3d at 557.
17 See Dennis, 178 S.W.3d at 179.
1&

See Thomas v. Slate, 126 S.W.3d 138, 144 (Tex. App.—Houston [1st Dist.] 2003, pet refd).

19 Tex. R. Evid.403.

-7-

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 8 of 10 PagelD #: 931

needed to develop the evidence; and (4) the proponent’s need for the evidence.20 The rules of
evidence favor the admission of relevant evidence and carry a presumption that relevant
evidence is more probative than prejudicial.21 We should reverse the trial court’s balancing
determination “rarely and only after a clear abuse of discretion.”22 In addition, because rule 403
permits the exclusion of admittedly probative evidence, “it is a remedy that should be used
sparingly,” particularly in “sexual-molestation cases that must be resolved solely on the basis of
the testimony of the complainant and the defendant. ”23
The rule 403 factors weigh in favor of admission. The extraneous offense evidence was
probative to rebut appellant’s defensive theories that appellant was not the type of person who
would sexually abuse a child and that the abuse allegations were fabricated. The testimony was
also probative as to the veracity of the complainant’s testimony. Moreover, the State’s need for
such evidence was considerable. There was no physical evidence of abuse to corroborate the
complainant’s testimony, and the defense painted a picture of a troubled young girl with a motive
to fabricate her testimony. The extraneous offense evidence pertained to an incident that was
very similar to the charged offense — touching the victim’s private parts while she was asleep or
preparing for sleep. Thus, the extraneous offense evidence suggests that E.B.’s allegations did
not result from a troubled early childhood, suggestions from her grandmother, or prodding by her
father. In addition, E.B. and appellant’s foster daughter had never met. Their accounts of abuse,
however, were too similar to explain by chance or false accusation. Although the extraneous .
offense testimony had the potential to impress the jury in an indelible way, there is no indication

20 Hernandez v. State, 390 S.W.3d 310, 324 (Tex. Crim. App. 2012); Shuffield v. State, 189 S.W.3d 782, 787 (Tex. Crim. App. 2006).
21 Jones v. State, 944 S.W.2d 642, 652 (Tex. Crim. App. 1996).
"2 Montgomery v. State, 810 S.W.2d 372, 392 (Tex. Crim. App. 1991) (op. on reh’g).
23 Hammer v. State, 296 S.W.3d 555, 568 (Tex. Crim. App. 2009).

-8-

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 9 of 10 PagelD #: 932

the jury was confused or distracted from the main issue. The testimony was relatively brief. The
trial court gave the jury a limiting instruction. Weighing these considerations, we cannot say the
trial court abused its discretion in concluding that the probative value of the extraneous offense
evidence was not outweighed by the danger of unfair prejudice. Appellant’s third issue is
overruled.
Having resolved all of appellant’s issues against him, we affirm the trial court’s
judgment.

/Kerry P. FitzGerald/
KERRY P. FITZGERALD
JUSTICE
Do Not Publish
Tex. R. App. P.47
121018F.U05

9

Case 4:17-cv-00196-ALM-CAN Document 10-15 Filed 08/11/17 Page 10 of 10 PagelD #:
933

Ctnurt nf Appeals
Jfftftly ©istrict nf Sexas at ©alias
JUDGMENT
STEPHEN COLEMAN SHOCKLEY,
Appellant
No. 05-12-01018-CR

On Appeal from the 366th Judicial District
Court, Collin County, Texas
Trial Court Cause No. 366-82727-09.
Opinion delivered by Justice FitzGerald.
Justices Moseley and O'Neill participating.

V.

THE STATE OF TEXAS, Appellee
Based on the Court’s opinion of this date, the judgment of the trial court is AFFIRMED.

Judgment entered July 30, 2014

10

APPENDIX E
State Habeas Corpus Grounds Three and Four

STATE APPLICATION FOR WRIT OF HABEAS CORPUS
TEXAS CODE OF CRIMINAL PROCEDURE, ART. §11.07
GROUND THREE: Prosecutorial Misconduct Caused Jurors To Convict
In-Part For Allegation Of Crime Against A Person,
Where Allegation And Person Are Foreign To The
Indictment. U.S. Const. Amend. V and XIV.
E.B. is the instant complainant. K.C. is an extraneous-offense
witness proffered by the State who alleged that 15 years prior to
trial, when she was 14-16 years of age, she and Mr. Shockley had a
sexual relationship.
During closing argument of guilt/innocence, the State engaged
in a series of misconduct that resulted in constructive amendment
of the indictment to include K.C.’s allegation as a basis for con­
viction in the instant case. The series included a) the disingen­
uous claim that "what happened to K.C. is the same thing that hap­
pened to E.B.," (RR4:90), though the record does not support this
claim (RR4:14 vs RR3:180); b) leading jurors to "focus on what
this defendant did to E.B. and — to K.C.," (RR4:93) though during
guilt/innocence the focus belongs on the indicted allegation; and
c) directly and explicitly asking jurors to convict "because not
only did he hurt K.C. so many years ago, he's hurt a second child
(RR4:95).
Here, jurors were asked by the State to convict in part on a
factual basis different from that alleged in the instant indict­
ment. The State's persistent misconduct cemented the remote ext­
raneous allegations of K.C. to those of the instant complainant
and placed both before jurors for remedy. When the State asked
jurors to convict in part because "...he hurt K.C. so many years
ago..." it unequivocally tasked them to adjudicate a matter that
lay beyond the jurisdiction conferred by the Grand Jury in the
indictment presented at trial. (RR3:8-11). This was grevious
error.
The State's action infected the verdict in this case with the
adjudication of an unindicted collateral matter and caused an
erroneous conviction. The Shockley Court lacked jurisdiction to
adjudicate the matter of K.C.'s complaint in whole or in part.
Nonetheless, the State asked jurors to do so. The verdict is there­
fore tainted and void.

NOTE: The above is a true and correct typewritten copy of the ground as it
appears in the State Application For Writ of Habeas Corpus.

STATE APPLICATION EOR WRIT OF HABEAS CORPUS
TEXAS CODE OF CRIMINAL PROCEDURE, ART. §11.07
GROUND FOUR: Mr. Shockley Was Denied Effective Assistance Of
Counsel At Trial As A Result of Counsel's Multiple
Acts Of Deficient Performance And Their Attendant
Prejudice. U.S. Const. Amend. VI and XIV.
This claim is based on the cumulative effect of counsel's acts
of deficient performance and prejudice suffered as a result incl­
uding (Subground Three) that counsel failed to object to a pattern
of prosecutorial misconduct during closing that culminated in a
request of jurors to convict on the basis of unindicted allegations
(RR4:90, 93, 95) .
[Subgrounds 1, 2, 4, 5, 6, 7, 8, 9, and 10 omitted]
But for counsel's deficient performance and its attendant pre­
judice, the outcome of trial would have been different.

NOTE: The above is a true and correct typewritten copy of the ground as it
appears in the State Application For Writ of Habeas Corpus.

%

APPENDIX F
Petition For Federal Writ Of
Habeas Corpus Under 28 U.S.C. §2254

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 1 of 13 PagelD #: 1
PETITION FOR WRIT OF HABEAS CORPUS: 28 USC §2254 (Rev. 9/10)
ADOPTED BY ALL FEDERAL COURTS IN TEXAS

IN THE UNITED STATES DISTRICT COURT
Eastern

FOR THE

Sherman

DISTRICT OF TEXAS
DIVISION

PETITION FOR A WRIT OF HABEAS CORPUS BY
A PERSON IN STATE CUSTODY

Stephen

C.

Shockley

Texas Dept, of Crim. Justice
Coffield Unit. Tenn. Colony, IX

CURRENT PLACE OF CONFINEMENT

PETITIONER
(Full name of Petitioner)

TDCJ

VS.

ID

# 1793928

PRISONER ID NUMBER

Lorie

b'-m-£\t- | 67

Davis

RESPONDENT
(Name of TDCJ Director, Warden, Jailor, or
authorized person having custody of Petitioner)

f?tus/kX'M

CASE NUMBER
(Supplied by the District Court Clerk)

INSTRUCTIONS - READ CAREFULLY
1.

The petition must be legibly handwritten or typewritten and signed and dated by the petitioner,
under penalty of perjury. Any false statement of an important fact may lead to prosecution for
perjury. Answer all questions in the proper space on the form.

2.

Additional pages are not allowed except in answer to questions 11 and 20. Do not cite legal
authorities. Any additional arguments or facts you want to present must be in a separate
memorandum. The petition, including attachments, may not exceed 20 pages.

3.

Receipt of the $5.00 filing fee or a grant of permission to proceed in forma pauperis must occur
before the court will consider your petition.

4.

Ifyou do not have the necessary filing fee, you may ask permission to proceed informa pauperis.
To proceed in forma pauperis, (1) you must sign the declaration provided with this petition to
show that you cannot prepay the fees and costs, and (2) if you are confined in TDCJ-CID, you
must send in a certified/^ Forma Pauperis Data Sheet form from the institution in which you are
confined. If you are in an institution other than TDCJ-CID, you must send in a certificate
completed by an authorized officer at your institution certifying the amount of money you have
on deposit at that institution. If you have access or have had access to enough funds to pay the
filing fee, then you must pay the filing fee.

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 2 of 13 PagelD #: 2
5.

Only judgments entered by one court may be challenged in a single petition. A separate petition
must be filed to challenge a judgment entered by a different state court.

6.

Include all of your grounds for relief and all of the facts that support each ground for relief in this
petition.

7.

Mail the completed petition and one copy to the U. S. District Clerk. The “Venue List” in your
unit law library lists all of the federal courts in Texas, their divisions, and the addresses for the
clerk’s offices. The proper court will be the federal court in the division and district in which you
were convicted (for example, a Dallas County conviction is in the Northern District of Texas,
Dallas Division) or where you are now in custody (for example, the Huntsville units are in the
Southern District of Texas, Houston Division).

8.

Failure to notify the court of your change of address could result in the dismissal of your case.

PETITION
What are you challenging? (Check ah that apply)

m

□
□
□

A judgment of conviction or sentence,
i
(Answer
Questions
probation or deferred-adjudication probation.
A parole revocation proceeding.
(Answer Questions
A disciplinary proceeding.
(Answer Questions
Other:
(Answer Questions

1-4, 5-12 & 20-25)
1-4, 13-14 & 20-25)
1-4, 15-19 & 20-25)
1-4, 10-11 & 20-25)

All petitioners must answer questions 1-4:
Note: In answering questions 1-4, you must give information about the conviction for the sentence vou
are presently serving, even if you are challenging a prison disciplinary action. (Note: If you are
challenging a prison disciplinary action, do not answer questions 1-4 with information about the
disciplinary case. Answer these questions about the conviction for the sentence you are presently serving.)
Failure to follow this instruction may result in a delay in processing your case.
1.

Name and location of the court (district and county) that entered the judgment of conviction and
sentence that you are presently serving or that is under attack:___________________________
366th Judicial District Court, Collin County, Texas

May

201 2

2.

Date ofjudgment of conviction:

3.

Length of sentence:

4.

Identify the docket numbers (if known) and all crimes of which you were convicted that you wish
366-82727-09
to challenge in this habeas action:

99 Years

-2-

v

Case 4:17-cv-00196-ALM-CAN

Document 1

Filed 03/17/17

Page 3 of 13 Page ID #: 3

Judgment of Conviction or Sentence, Probation or Deferred-Adjudication Probation;
What was your plea? (Check one)

6.

Kind of trial: (Check one)

7.

Did you testify at trial?

8.

Did you appeal the judgment of conviction?

9.

If you did appeal, in what appellate court did you file your direct appeal? 5th court of
Appeal,

Dallas ,

13 Not Guilty

□ Guilty

5.

13 Jury
E3 Yes

TX

D Nolo Contendere

D Judge Only
□ No
El Yes

□ No

Cause Number (ifknown): 05-1 2-01 01 BCR

What was the result of your direct appeal (affirmed, modified or reversed)? Affirmed
What was the date of that decision?

3 0 Jul 2014

If you filed a petition for discretionary review after the decision of the court of appeals, answer
the following:
Grounds raised: 1) Incomplete Opinion; 2) Rule 404(b) Error; 3) More-heinous
Allegation Used To Prove A Less-heinous Allegation; 4) Limiting Inst. Error
Result: petition Refused on 14 Jan 2015, Motion for Rehearing Filed 26 Jan 2015
Date of result: Denied 25 Feb 2015

Cause Number (ifknown): PD-1093-14

If you filed a petition for a writ ofcertiorari with the United States Supreme Court, answer the
following:
Result: N/A
Date of result: N/A
10.

Other than a direct appeal, have you filed any petitions, applications or motions from this
judgment in any court, state or federal? This includes any state applications for a writ of habeas
£3 Yes
corpus that you may have filed.
□ No

11.

If your answer to 10 is “Yes,” give the following information:
Name of court:

366th Judicial District Ct. / TX Ct. of Criminal Appeals

Nature of proceeding:

State UJrit of Habeas Corpus

Cause number (if known):

U366-B2727-09HC / UR-84,023-01

-3-

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 4 of 13 PagelD #: 4
Date (month, day and year) you Filed the petition, application or motion as shown by a filestamped date from the particular court:
31 Dec 2015
Grounds raised: 1) Statute Unconst.—Denies the Pres, of Innocense; 2) Statute Unconst.
—Void far Vagueness; 3) Const. Amend, of Indictment; 4) Ineffective flsst. of Counsel

9 Nov 2016
Date of final decision:
Habeas Relief Was Denied

What was the decision?

Name ofcourt that issued the final decision: Texas Court of Criminal Appeals
As to any second petition, application or motion, give the same information:
Name of court:

•______________________________________

Nature of proceeding: N/A
Cause number (if known):

N/A

Date (month, day and year) you filed the petition, application or motion as shown by a filestamped date from the particular court:
N/A

Grounds raised:

N/A

Date of final decision:

N/A

What was the decision? N/A
Name of court that issued the final decision:

N/A

Ifyou have filed more than two petitions, applications or motions, please attach an additional
sheet ofpaper and give the same information about each petition, application or motion.
12.

Do you have any future sentence to serve after you finish serving the sentence you are attacking
in this petition?
□ Yes
El No
(a)

If your answer is “Yes,” give the name and location of the court that imposed the sentence
to be served in the future: N/A___________________________________________

(b)

Give the date and length of the sentence to be served in the future:

-4-

N/A

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 5 of 13 PagelD #: 5
Have you filed, or do you intend to file, any petition attacking the judgment for the
(c)
□ Yes □ No N/fl
sentence you must serve in the future?
Parole Revocation: N/A
13.

Date and location of your parole revocation:

14.

Have you filed any petitions, applications or motions in any state or federal court challenging
your parole revocation?
□ Yes
□ No
If your answer is “Yes,” complete Question 11 above regarding your parole revocation.

Disciplinary Proceedings: N/fl
15.

For your original conviction, was there a finding that you used or exhibited a deadly weapon?
□ Yes
□ No

16.

Are you eligible for release on mandatory supervision?

17.

Name and location of the TDCJ Unit where you were found guilty of the disciplinary violation:

□ Yes

□ No

Disciplinary case number:
What was the nature of the disciplinary charge against you?
18.

Date you were found guilty of the disciplinary violation:
Did you lose previously earned good-time days?

DYes

□ No

If your answer is “Yes,” provide the exact number of previously earned good-time days that were
forfeited by the disciplinary hearing officer as a result of your disciplinary hearing:

Identify all other punishment imposed, including the length of any punishment, if applicable, and
any changes in custody status:

19.

Did you appeal the finding of guilty through the prison or TDCJ grievance procedure?
□ Yes
□ No
If your answer to Question 19 is “Yes,” answer the following:
Step 1 Result:

-5-

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 6 of 13 PagelD #: 6
Date of Result:
______________
Step 2 Result:
Date of Result:
All petitioners must answer the remaining questions:
20.

For this petition, state every ground on which you claim that you are being held in violation of the
Constitution, laws, or treaties of the United States. Summarize briefly the facts supporting each
ground. If necessary, you may attach pages stating additional grounds and facts supporting them.
CAUTION: To proceed in the federal court, you must ordinarily first exhaust your available statecourt remedies on each ground on which you request action bv the federal court. Also, if you fail
to set forth all the grounds in this petition, vou mav be barred from presenting additional grounds
at a later date.

A.

GROUND ONE: Mr. Shockley's 14th Amendment right to due process mas violated when the state engaged in constructive amendment of the indictment.
U.S. Const. Amend. XIV.
Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
During closing, the state over-and-over placed the instant complainant along­
side the third-party extraneous complainant, then explicitly asked jurors
to convict as remedy for both. Mr. Shockley was not on trial for the ex­
traneous allegation. A summary of facts follows on page 6A; Facts are dev­
eloped and argued in the supporting memorandum.

B.

GROUND TWO: Mr. Shockley's 14th Amendment right to due process and/or eq­
ual protection was denied when he was tried under constitutionally infirm
mechanisms of law in Texas Penal Code §21.02. U.S. Const. Amend. XIV.
Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
During state habeas review

Mr. Shockley argued in two grounds that Texas

Penal Code §21 .02 is offensive to the 14th Amendment. The state refused to
hear the claim because no error was preserved. Mr. Shockley now argues facts
sufficient to overcome bar and seeks hearing of his claim. A summary of facts
follows on page 6B;. Facts are developed and argued in supporting memorandum.

-6-

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 7 of 13 PagelD #: 7

GROUND ONE: Mr. Shockley's 14th Amendment right to due process uas violated
uhen the state engaged in constructive amendment of the indictment. U.S. Const.
Amend. XIV.
Brief Summary of Supporting Facts
See "Memorandum In Support Of Petition For UJrit Of Habeas Corpus"

• This ground uas presented as Ground Three during state habeas. See Memor­
andum Appendix A, pg A-1 and A-18 thru 22.
• Ground Three complained of a jurisdictional defect stemming from prosecutorial
misconduct that resulted in constructive amendment of the indictment, i.e.
asking jurors to convict in part for an allegation of crime against a person
uhen both the allegation and the person are foreign to the indictment. See
Memorandum, pg 5-6.
• The state misunderstood and mischaracterized the claim to be a mere claim of
inadmissible-evidence; then errantly adjudicated the claim as previously
raised and thus barred from habeas revieuf That uas not the claim.
• The claim uas that over-and-over during closing, the state cemented_the_
rebuttal"'uitness”to7th’e7instant^ complainant; told jurors the same thing had
happened"tc^both; told jurors it uould focus on both; then asked jurors to
find" Mr. Shock ley, gu 11 ty_" not .only, because ,[1 ]. he hurt [the-.rebuttal.uit:L
ness] so many years ago; (2] he’s hurt a second child..." (RR4:90-95) See
Memorandum pg 5-6; See also Memorandum Appendix A, pg A-1.
• Diligent and repeated attempts to correct the state's misunderstanding failed.
See Memorandum pg 7-8.
• Constructive amendment of indictment claim remains unreached; adjudication
on the merits cannot be presumed in light of the facts in the record and
the state's repeated and uritten mischaracterizations. See Memorandum pg 7.
• De novo revieu is required. See Memorandum pg 4 and 10.
• Mr. Shockley seeks reversal with prejudice; reversal uith a neu trial on the
indicted offense alone; or a negotiated outcome. See Memorandum pg 10.

* Reference omitted. See Memorandum pg 7.

Page 6A

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 8 of 13 PagelD #: 8

GROUND TWO: Mr. Shockley’s 14th Amendment right to due process and/or equal
protection was violated when he was tried under constitutionally infirm mech­
anisms of law in Texas Penal Code §21.02. U.S. Con^t. Amend. XIV.
Brief Summary of Supporting facts
See "Memorandum In Support Of Petition For Writ Of Habeas Corpus"
• State habeas grounds One and Two were not adjudicated on their merits; the
state claimed a procedural bar because no error was preserved at trial. See
Memorandum Appendicies D and E. See also Memorandum pg 11.
• Claim may be barred in this Court. See Memorandum pg 11.
• "Cause and prejudice" for default exist in counsel's ineffective assistance.
See Memorandum pg 12-13; 5ee also Memorandum Appendix B-41 thru 43.
• The miscarriage-of-justice exception to procedural default also applies. The
plea of Not-Guilty cannot be defended when law allows jurors to presume upon
allegation what need not be proven beyond a reasonable doubt--that Mr. Shockley
committed any crime alleged as a basis for the continuing crime. See Memo­
randum pg 1 3.
• When heard, Mr. Shockley will demostrate that Texas Penal Code §21.02 is
repugnant to the 14th Amendment because:
• « It consolidates the commission of two or more offenses against penal
statutes listed at §21.02(c) under itself; relabels the discrete allegations
of crime as the mere means to commit another crime; then abandons the due
process right to the presumption of innocence concerning the predicate
crimes. See Memorandum pg 13-16; See also Memorandum Appendix D.
•• Without guidance in law to ensure uniform application, it allows pro­
secutors to consolidate multiple allegations of crime against identicallysituated persons such that one faces higher minimum sentence (min. 4 years
vs. min 25 years); One is eligible for parole, the other must serve-all;
and one may demand proof beyond a reasonable doubt concerning each alleg­
ation of predicate crime--the other cannot because §21.02 was crafted to
avoid such burden where young complainants are involved. This subjects
those accused thereunder to an arbitrary power of government disallowed
by the 14th Amendment. See Memorandum pg 16-17; See also Memorandum
Appendix E.
• Mr. Shockley seeks de novo review of state habeas grounds One and Two. He
seeks a finding that Texas Penal Code §21.02 is violative of the 14th
Amendment. Alternatively, he seeks a Certificate of Appealability to pre­
sent this claim in the Court of Appeals for the Fifth Circuit.

Page 6B

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 9 of 13 PagelD #: 9
C.

GROUNDTHREE: Mr. Shockley’s trial counsel rendered ineffective
assistance. U.S. Const. Amend. VI.

Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
Mr. Shockley here argues that the determination of factual issues was un­
reasonable ;insufficient facts exist in the record to support any reason­
able argument that counsel satisfied the applicable deferential standard.
Summary of facts follows on page 7A; Facts are developed and argued in the
supporting memorandum.

D.

GROUND FOUR:

N/A

Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
N/A

21.

Relief sought in this petition:
remand for retrial

Mr. Shockley seeks reversal of his conviction,

or a negotiated outcome.

-7-

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 10 of 13 PagelD #: 10

GROUND THREE: Mr. Shockley's trial counsel was ineffective. U.S. Const. Amend.VI.

Brief Summary Of Supporting Facts
See "Memorandum In Support Of Petition Far Writ Of Habeas Corpus"
, The court's determination of the facts was unreasonable. See Memorandum
pg 18-19.
•• The convicting court's Order Designating Issues was ruled "untimely" and
"without effect" by the Court of Criminal Appeals of Texas. See its per
curiam order of 15 Oun 2016. See also Memorandum pg 20.
Gout4
•• The convicting^designated no controversy with any fact alleged or implicated by Mr. Shockley during the statutory period within which it was
allowed to do so. See Texas Code of Criminal Procedure, Art. 11.07; See also
Memorandum pg 19-21.
«« The convicting court proceeded to mischaracterize issues of fact then
resolved them via a paper-only hearing. See Memorandum, Illustrative Mischaracterization examples one thru three, pg 21-23.
»• Mr. 5hockley sought a live-evidenciary hearing to conduct "fair and pro­
bative inquiry" lest the paper-only hearing "fail to reach, or provide
sound factual basis for [the] court to decide the issues." See Motions For
Live Evidenciary Hearing of 12 May 2D16 and 23 Sep 2016; See also Memoran­
dum pg. 26-27.
•• The paper-only hearing relied on trial counsel's affidavit where a) he
freely admits he did not review the transcript in preparation of his resp­
onse; and b) counsel over-and-over relies on "I cannot recall" to shut down
the fact-finding process concerning the reasonableness of his challenged
performance. See Trial Counsel's Affidavit in Memorandum Appendix C.
« • • Illustrative of the things yet unknown are a) why counsel took no action when, during cross-examination, the state's witness declared that "Usu­
ally, the investigation doesn't come to trial if the child isn't telling
the truth;" and b) why counsel felt it best to remain silent when the state
encouraged jurors to convict in part for allegations of offense for which
Mr. Shockley was not on trial. (RR3:78 and RR4:95) See Memorandum pg 24-26.
*•« The habeas judge was not the trial judge and had no personal knowledge
of pertinent trial events. See Memorandum pg 26.
•• Because facts have not been sufficiently developed to overcome what the
record-facts reveal; counsel was ineffective, Mr. Shockley seeks reversal
of the conviction and remand for new trial with effective counsel or a
negotiated outcome. At minimum, Mr. Shockley seeks a live evidenciary
hearing to fully and fairly examine, cross-examine facts at issue.

Page 7A

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 11 of 13 PagelD #: 11
22.
Have you previously filed a federal habeas petition attacking the same conviction, parole
revocation or disciplinary proceeding that you are attacking in this petition? DYes
ElNo
If your answer is “Yes,” give the date on which each petition was filed and the federal court in
which it was filed. Also state whether the petition was (a) dismissed without prejudice, (b)
dismissed with prejudice, or (c) denied.
N/A

If you previously filed a federal petition attacking the same conviction and such petition was
denied or dismissed with prejudice, did you receive permission from the Fifth Circuit to file a
second petition, as required by 28 U.S.C. § 2244(b)(3) and (4)?
□ Yes □ No
23.

Are any of the grounds listed in question 20 above presented for the first time in this petition?
El No
□ Yes
If your answer is “Yes,” state briefly what grounds are presented for the first time and give your
reasons for not presenting them to any other court, either state or federal.
N/A

24.

Do you have any petition or appeal now pending (filed and not yet decided) in any court, either
□ Yes
El No
state or federal, for the judgment you are challenging?
If “Yes,” identify each type of proceeding that is pending (i.e., direct appeal, art. 11.07
application, or federal habeas petition), the court in which each proceeding is pending, and the
date each proceeding was filed.___________________________________________________
N/A

25.

Give the name and address, if you know, of each attorney who represented you in the following
stages of the judgment you are challenging:
G. Talmadge Nix,

(a)

At preliminary hearing:

(b)

At arraignment and plea:

(c)

At trial:

Same

(d)

At sentencing:

5ame

(e)

On appeal:

Same

(f)

In any post-conviction proceeding:

III

112 N. Travis St. Suite 1□□
Sherman, TX 7509D

None,

-8-

Pro-Se

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 12 of 13 PagelD #: 12
On appeal from any ruling against you in a post-conviction proceeding: None; Pro-Se

(g)

Timeliness of Petition:
26.

If your judgment of conviction, parole revocation or disciplinary proceeding became final over
one year ago, you must explain why the one-year statute of limitations contained in 28 U.S.C. §
2244(d) does not bar your petition. i
N/fl

Petition Is Timely Filed.

l
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA-”), as contained in 28 U.S.C. § 2244(d),
provides in part that:

(1)

(2)

A one-year period of limitation shall apply to an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court. The limitation period shall run from the latest of(A)

the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;

(B)

the date on which the impediment to filing an application created by State action in violation
of the Constitution or laws of the United States is removed, if the applicant was prevented from
filing by such State action;

(C)

the date on which the constitutional right asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or

(D)

the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.

The time during which a properly filed application for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.

-9-

Case 4:17-cv-00196-ALM-CAN Document 1 Filed 03/17/17 Page 13 of 13 PagelD #: 13
Wherefore, petitioner prays that the Court grant him the relief to which he may be entitled.
rj/t’c

Signature of Attorney (if any)

I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and correct
and that this Petition for a Writ of Habeas Corpus was placed in the prison mailing system on

M

iS }

Executed (signed) on

'is j ~j

J

(month, day, year).

Meor -Let7

(date).

&

Signature of Petitioner (required)

Petitioner’s current address:

Stephen C. Shockley, #1793920
2661 FM 2054; Caffield Unit
Tennessee Colony, TX

-10-

75004

APPENDIX G
Terms Of Running Bill Demonstrating Bill's
Inapplicability To The Issue Raisedo

TERMS
Running Bill Of Exception And Objection
At trial

Defense Counsel raised objection to Ms. Kristen Chand­

ler^ upcoming extraneous testimony. He argued:
a. That Kristen's third-party allegations were inadmissible be­
cause of "relevancy grounds." (RR4:8)
b. That proper notice of Kristen's appearance was not given
because "she is not listed on a witness list." (RR4:8)
c. That the allegation of misconduct, "being 17 years in the
past is too remote." (RR4:9)
d. That the "evidence that's going to come forth is highly,
highly inflammatory and prejudicial. That is--in comparison
to its probative value like a tidal wave to a mud puddle." Id.
Each objection was overruled. Counsel next asked for a running
bill of objection "to any testimony by this witness so I'm not hav­
ing to object every time a question is asked." (RR4:10)
The Court responded simply that "any question that is asked of
this witness by the State

I will consider the objections made just

now as if they were made to eachindividual question." (RR4:10)

NOTE: Nowhere in the record is there any indication that the bill
was ever intended or extended to cover prosecutorial miscon­
duct via improper jury argument during closing arguments.

APPENDIX H
Petitioner's Repeated Efforts To Correct Appellate
Court's Misapprehension Of Habeas Claims

PETITIONER'S REPEATED EFFORT TO CORRECT
APPELLATE COURT'S MISAPPREHENSION
OF HIS HABEAS CLAIMS

Appellate courts have persistently misapprehended Petitioner's
habeas claim to challenge the admissibility of Kristen Chandler's
third-party remote extraneous allegation. Such an understanding
is gross error.
Mr. Shockley raised no such challenge whatsoever on habeas.
The habeas complaint was that during closing arguments the State
told jurors to employ the testimony in an improper manner that de­
nied Mr. Shockley's 14th Amendment due-process right to fair trial.
and
on page
above)
(See paragraphs
Over and over Mr. Shockley has warned that courts are misappre­
hending his claims and thus adjudicating claims he did not raise
while his actual claims linger unresolved. For example:
(1) On 25 Jan 2016 Mr. Shockley filed APPLICANT'S MOTION TO
CLARIFY_in the trial court. At Paragraph I, pg 1, he initially
advised the court that the State's summary of his claim was "in­
complete and may be misleading." He made clear that his compla­
int was against the State "cementing a collateral matter [that
of Kristen Chandler's third-party extraneous complaint] to the
indicted allegation and asking jurors to convict first for the
collateral matter, then the instant."
(2) Upon seeing the court's official findings and realizing
that his actual issue had been avoided, Mr. Shockley filed on
9 Aug 2016 in both the trial court and the Texas Court of Crim­
inal Appeal (TCCA) APPLICANT'S OBJECTION TO THE TRIAL COURT'S
FINDINGS OF FACT AND CONCLUSIONS OF LAW, RECOMMENDATION where,
in Paragraph II, pages 2-3 he made:''Ohjection To The Profound
Mischaracterization of Habeas Ground Three." He informed the
court that its "understanding of this ground is completely for­
eign to the ground presented in the habeas application."
Where the trial court reframed his claim to be that "the
Prosecutor engaged in misconduct by introducing improper evi­
dence of an extraneous offense," Mr. Shockley reminded the
court that "he makes no such allegation in his habeas applic­
ation." His actual complaint was "that jurors were asked by
the State to convict in-part on a factual basis different from
th £t alleged in the indictment...The record shows L(RR4:9095)] that after repeatedly presenting two complainants during
closing arguments, the State transgressed so far as to ask jur­
ors to 'find the defendant guilty because [1] not only did he
hurt [third-party extraneous witness] so many years ago, [2]
he's hurt a second child' (RR4:95).
"The State clearly presented jurors two reasons to con­
vict; the first was a third-party allegation" for which Mr.
Shockley was not on trial. "This is the Ldue processJ claim

that must be reached,” and the "trial court has failed to reach
the claim presented. This meritorius claim remains unadjudicated."
(3) The TCCA remanded the case back to the trial court with in­
struction that the court resolve issues of fact. The trial court
bamboozled the TCCA by suggesting the TCCA rescind its remandorder because the court had previously resolved issues of fact
The problem was that the trial court had resolved its own
version of the claim, not what was actually raised. In his OBJ­
ECTION TO THE 'STATE'S SUGGESTION COURT RECONSIDER ON ITS OWN
MOTION' at Paragraph I, Pages 1-2, Mr. Shockley again complained
that "the State repeatedly placed the extraneous third-party co­
mplainant along-side the instant during closing arguments. The
State went so far as to ask jurors to 'find the defendant guilty
because [1] not only did he hurt [third-party extraneous witness]
so many years ago, L2] he's hurt a second child.’ The verdict
is therefore infected... this issue must be properly understood
and decided. In the State's submission it is neither."
Neither the TCCA nor the trial court moved their focus
away from the errorneous notion that Mr. Shockley was relitig­
ating the admissibility of the Chandler testimony, to the act­
ual complaint that he was denied a fair trial when the State
asked jurors to convict upon the instant charge using proofs
of an extraneous matter.
(4) The TCCA rescinded its remand-order and denied relief. In
APPLICANT'S OBJECTION TO THE RECISSION OF THIS COURT'S 21 SEP
2016 PER CURIAM ORDER on 16 Nov 2016, at Paragraph II, Page 2,
Mr. Shockley raised objection that the State's misapprehension
has left his "habeas claims (Ground Three and Ground Four, Sub­
ground Three) unreached and unresolved by the trial court." The
TCCA offered no response and Mr. Shockley's single-bite at the
state habeas apple was spent without the appellate courts ever
reaching his complaint.
(5) On 15 Mar 2017, Mr. Shockley filed a timely petition for
writ of habeas corpus in the United States Federal District
Court For The Eastern District Of Texas under 28 U.S.C. §2254
(4:17-CV-196).
He alleged that in dispatching his 14th Amendment DueProcess (fair trial) claim *'the State misunderstood and mischaracterized the claim to be a mere claim of inadmissible ev­
idence ... that was not the claim. The claim was that over-andover during closing, the State cemented the rebuttal witness
[Ms. Chandler] to the instant complainant; told jurors the
same thing happened to both; told jurors that it would focus
on both; then asked jurors to find [him] guilty 'not only because [1] he hurt Lthe rebuttal witnessJ so many years ago,
L 2 J he's hurt a second child...' Diligent attempts., to correct

the State's misunderstanding have failed." PETITION FOR WRIT
OF HABEAS CORPUS, 15 Mar 2017, at page 6A.
(6) In PETITIONER'S REPLY TO RESPONDENT'S ANSWER, page 1, Mr.
Shockley drew "particular attention to Ground One (Ground Three
during State habeas). The State has near sprained itself from
day-one offering mischaracterization and false bars to avoid
the claim." The State having introduced "the allegation of a
remote third-part isn’t the issue--the State having told jurors
to convict as remedy for it under the instant indictment, is."
Id. at page 3. "Whatever the facts of the third-party extran­
eous allegation were twenty years ago, The State was not at lib­
erty to urge them as a basis for conviction here." Id. at page 4.
(7) A Federal Magistrate Judge found that the due-process claim
was beyond the reach of the Eastern District Court because the
State had relied on on a State rule that barred twice raising
a claim (once on direct appeal and once on habeas) though the
record is clear that Mr. Shockley's claims were both factually
and legally distinct.
(8) The Magistrate's findings above, appear in the REPORT AND
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE at page 7. Mr.
Shockley objected again to the presence of a fictitious bar
being used to derail appellate review. In PETITIONER'S OBJECT­
ION TO THE REPORT AND RECOMMENDATION OF UNITED STATES MAGISTRATE
JUDGE, 23 Mar 2020 at page 2-3, he Petitioner again warns that
the relitigation bar is a contrivance of the State.
On direct appeal Petitioner raised the admissibility of
Ms. Chandler's third-party extraneous testimony. He did not
relitigate the issue on habeas. "Admissibility of the extraneous
allegation is utterly foreign to the Petitioner's complaint...
Petitioner's actual complaint remains that the State's prose­
cutor engaged in misconduct by a) repeatedly (nine times) foc­
using the attention of jurors on the third-party rebuttal wit­
ness during closing arguments; b) openly declaring that the foc­
us of her argument at closing was on the allegation of both
the instant complainant and the remote third-party extraneous
complainant; and c) by point-blank giving jurors a dual basis
for conviction in the instant case, encouraging them to ’find
the defendant guilty not only because [1] he hurt [the extra­
neous witness] so many years ago, [2] he's hurt a second child."
"Admissibility of the extraneous allegation is not a habeas
issue. The State's misconduct with the allegation, is." Id.
(9)

In the District Court Judge's ORDER OF DISMISSAL, 30 Mar

I

2020, at page 1, concernin Petitioner's "claim that his right
to due-process was violate during closing argument when the
state asked the jury to convict upon both his indicted offense
and an unindicted extraneous. The Magistrate Judge correctly
found that this claimis procedurally barred."
This claim IS NOT procedurally barred. The District Court
h&s, despite Petitioner’s best-efforts, ignored the record-fact
that the due-process claim appeared for the first time during
State habeas and relitigates nothing.
Further, even IF the claim were a relitigation of a pre­
vious state claim, "relitigation" IS NOT a bar to federal rev­
iew by a District Court...So says the United States Supreme
Court in Cone v. Bell, 566 U.S. 449, 466767 (2009).

